<html>
<title> - THE STATUS OF TACTICAL WHEELED VEHICLE ARMORING INITIATIVES, AND IMPROVISED EXPLOSIVE DEVICE (IED) JAMMER INITIATIVES IN OPERATION IRAQI FREEDOM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 109-79]
 
   THE STATUS OF TACTICAL WHEELED VEHICLE ARMORING INITIATIVES, AND 
IMPROVISED EXPLOSIVE DEVICE (IED) JAMMER INITIATIVES IN OPERATION IRAQI 
                                FREEDOM

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 5, 2005

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES



                     U.S. GOVERNMENT PRINTING OFFICE

32-996 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                    Robert S. Rangel, Staff Director
                    Jesse Tolleson, Program Analyst
                Andrew Hunter, Professional Staff Member
               Paul Arcangeli, Professional Staff Member
                     Curtis Flood, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Thursday, May 5, 2005, The Status of Tactical Wheeled Vehicle 
  Armoring Initiatives, and Improvised Explosive Device (IED) 
  Jammer Initiatives in Operation Iraqi Freedom..................     1

Appendix:

Thursday, May 5, 2005............................................    73
                              ----------                              

                         THURSDAY, MAY 5, 2005
   THE STATUS OF TACTICAL WHEELED VEHICLE ARMORING INITIATIVES, AND 
IMPROVISED EXPLOSIVE DEVICE (IED) JAMMER INITIATIVES IN OPERATION IRAQI 
                                FREEDOM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     5
Weldon, Hon. Curt, a Representative from Pennsylvania............     4

                               WITNESSES

Catto, Maj. Gen. (Sel) William D., Commanding General, Marine 
  Corps Systems Command, U.S. Marine Corps.......................    12
DeTeresa, Dr. Steven, Lawrence Livermore National Laboratory.....     6
Kennedy, Lt. Col. Paul J., Former Battalion Commander, 2nd 
  Battalion, 4th Marine Regiment, First Marine Division, 
  Headquarters Battalion, First Marine Division, U.S. Marine 
  Corps..........................................................    65
Mattis, Lt. Gen. James N., Former Commander, First Marine 
  Division, Commanding General, Marine Corps Combat Development 
  Command, U.S. Marine Corps.....................................    65
Sorenson, Brig. Gen. (Promotable) Jeffrey A., Deputy for 
  Acquisition and Systems Management, Office of the Assistant 
  Secretary of the Army (Acquisition, Logistics and Technology)..    12
Votel, Brig. Gen. Joseph L., Director, Joint Improvised Explosive 
  Device Defeat Task Force, Headquarters, Department of the Army, 
  Office of the Deputy Chief of Staff, G3........................    14

                                APPENDIX

Prepared Statements:

    Catto, Maj. (Sel) Gen. William D.............................    90
    Hunter, Hon. Duncan..........................................    77
    Sorenson, Brig. Gen. Jeffrey A., joint with Brig. Gen. Joseph 
      L. Votel...................................................    82

Documents Submitted for the Record:

    Actions Needed to Improve the Availability of Critical Items 
      During Current and Future Operations [The information 
      referred to is retained in the committee files and can be 
      viewed upon request.]
    Armor & Countermeasure Timeline Key Points with chart on Army 
      HMMWV Ad-on Armor Production vs. Operational Requirements..   137
    Article of April 25, 2005 from New York Times on the Marines 
      From Iraq Sound Off About Want of Armor and Men by Michael 
      Moss.......................................................   142
    Guns Trucks and Transparent Armor for Force Protection 
      presented by Dr. Steven DeTeresa...........................   105
    House Report 108-491--Section 801--Rapid Acquisition 
      Authority to Respond to Combat Emergencies.................   147
    OEF AoA Requirements.........................................   153
    Response to the New York Times Article and the Issue of Armor 
      Available to the Battalion From its Arrival in Kuwait 
      Through the Redeployment to OIF............................   135
    The ``Iron Horse'' in El Taqaddum, Iraq......................   148
    UAH Requirements.............................................   154

Questions and Answers Submitted for the Record:

    Mr. Andrews..................................................   158
    Mr. Langevin.................................................   157
    Mr. Reyes....................................................   157
    Mr. Shuster..................................................   158
   THE STATUS OF TACTICAL WHEELED VEHICLE ARMORING INITIATIVES, AND 
IMPROVISED EXPLOSIVE DEVICE (IED) JAMMER INITIATIVES IN OPERATION IRAQI 
                                FREEDOM

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                             Washington, DC, Thursday, May 5, 2005.
    The committee met, pursuant to call, at 9:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    This morning the committee continues its review of the 
status of the armoring program for Army and Marine Corps 
tactical vehicles in Iraq, as well as the status of deployment 
of electronic jamming devices to counter the threat of 
improvised explosive devices, better known to all of us as 
IEDs.
    Our leadoff witness is Dr. Steven J. Teresa of the Lawrence 
Livermore National Laboratory. And on our second panel, 
Brigadier General Joseph Votel, Director of the Joint IED 
Defeat Task Force, Office of the Secretary of Defense; 
Brigadier General Jeffrey Sorenson, Deputy for Acquisition and 
Systems Management, Office of the Assistant Secretary of the 
Army; and Brigadier General William Catto, Commanding General, 
Marine Corps Systems Command.
    And on our third panel, Lieutenant General James N. Mattis, 
Former Commander, First Marine Division, and Commanding 
General, Marine Corps Combat Development Command; and 
Lieutenant Colonel Paul J. Kennedy, Former Battalion Commander, 
2nd Battalion, 4th Marine Regiment, First Marine Division.
    The jurisdiction of this committee is such that we cover a 
very wide range of issues, but the significance of other issues 
pales relative to the importance of providing the best 
protection possible to our men and women serving in Operation 
Enduring Freedom and Iraqi Freedom.
    No other issue in the past two years has taken a higher 
priority for this committee. We have done a lot of work on this 
specific issue of armor, and I wanted to let my colleagues know 
where we stand with respect to committee action that has been 
taken and the task force that we have put together to work the 
armor issue, because there has been no element of this conflict 
that has been more deadly to our people than the IED blowing 
these things remotely, sometimes hardwired, on our troops who 
are either in operation or in convoy. And we put together a 
task force headed up by Mr. Bob Simmons. I want to run down 
some of the things that we have done so we can take a look at 
the present state of affairs, and when we get our updates from 
the services and from Dr. DeTeresa, the committee can decide 
where we want to go from here.
    We began oversight of the Army on these programs in 2003. 
The Army at that point approved $129 million for add-on armor 
kits; $300 million remains, however, at this time unfunded.
    In January of 2004, we reviewed the Army production plan 
that was originally scheduled to complete 7,000 kits by 
December of 2004. We determined that the best production effort 
could actually finish those kits much earlier, in fact by April 
2004; and we submitted a memo to the Army noting that we had 
enough in terms of arsenals, industry and steel mills, if they 
operated at max capacity, to move this production of armor to 
the left, that is, to move it up to April.
    We visited the steel mills that churn this stuff out. We 
reached agreement with steel mill management and union 
officials to voluntarily set aside the commercial work they 
were doing and dedicate a hundred percent of their capacity to 
armor plate production.
    The delivery schedule for steel was compressed at that 
point by four months; that is, we moved the production from 
December 2004 to April 2004. Now, at this point, we found 
something else, and that was that when we built Strykers, we 
utilized high hard steel;that is three-eighths-inch high-
performance steel, and we had a lot of it left over from 
Stryker production. So we discovered that at the steel mills 
while we were making the visits, and we started to move that 
into the system.
    We determined at that point that we needed additional 
manufacturing capacity, and the Army, working with Les 
Brownley, the Army committed nine depots and arsenals to armor 
kit production.
    We also suggested to the Army that 11 sites be opened in 
Iraq to install Humvee armor, because by doing that we could 
put that armor on--when the Humvees arrived in country, we 
could marry it up with armor and move it out to its location in 
theater.
    On March 2nd of 2004, the Secretary directed the 
compression of the schedule to what we recommended in terms of 
production rates, to the House recommended production rates. 
The Army notified us at that time of delinquent deliveries of 
steel from Canadian steel mills, and they requested our 
assistance. And we sent our team out to Canada to resolve the 
delivery issues. At that point, we started to look also at the 
tactical truck fleet because these 5-ton trucks with the Army, 
particularly 7-ton trucks with the Marines, with the capability 
that they have in terms of a load carrying capacity, lends 
itself to the heavy weight that is involved in armoring up.
    We delivered, on June of 2004, Stryker steel gun boxes; 
these were gun boxes made out of excess Stryker steel that we 
had found that were delivered to Iraq. In November of 2004, 
aluminum mill shipments threatened to break production of armor 
kits for trucks. Our team met with the aluminum company 
executives and arranged for a shift in priorities back to the 
armor programs.
    Our oversight team also discovered that the IED 
countermeasure supplier was running out of Army funding and 
laying off production personnel, and at that point, we went 
into a negotiation with the Secretary of Defense, and we agreed 
on a very substantial reprogramming to put the IED 
countermeasure production at full speed.
    In January of 2005, we shipped our first--the Army shipped 
its first 5-ton truck kit, three months later than the original 
commitment. And our HASC team at the same time was working on 
oversight of IED production, and we started to move into that 
area.
    CENTCOM then reported this policy--that we are all familiar 
with now--that no unarmored vehicles, that is, vehicles without 
level one, two or three armor, would go out on operation after 
February 15 in theater in Iraq or Afghanistan.
    Since then, we have been working the IED countermeasure 
problem, and what we have done is the committee passed last 
year--I think everybody's familiar with this provision that we 
passed that said that the Secretary of Defense, if he is taking 
casualties on the battlefield, can wave every existing American 
law with respect to acquisition and simply buy what the troops 
need as quickly as possible.
    We have developed some new jamming capability, and we have 
a product that we think we can flood into the field very 
quickly. And a couple of days ago the Secretary of Defense 
(SECDEF) signed out the directive that is utilizing this new 
license that HASC developed and that we passed into law last 
year for the first time, and that is that with a goal of 
arriving at contract within 15 days after certification. The 
certification was signed just a couple of days ago. We hope to 
be able to get this new capability flooded into the field, not 
ramped up on a classic industrial schedule, but flooded into 
the field within the next 45 to 60 days.
    So SECDEF is moving out that. He signed the certification 
that we provided for him, certifying that there was an urgent 
combat need for this system, and this will be will be the first 
system moved out under this new structure that we have. Now 
this is going to require lots of personal accountability 
because what we are doing is replacing miles of paperwork and 
lots of bureaucracy with individual accountability, but we 
think that this is an area that is so critical that we are 
going to have to move very quickly, like we have managed to 
move in the past, and so we are going to exercise this new 
instrument that we have put together.
    Now, we have a big bureaucracy; we in Congress have helped 
to build up bureaucracy in lots of agencies and for good--in 
many cases, for good reasons, you need to have lots of checks 
and balances in a system where taxpayer monies are spent in 
large numbers. On the other hand, when you are in a combat 
situation, sometimes that bureaucracy gets in the way. We have 
moved out on our armor situation sometimes fitfully, sometimes 
in a robust manner. We have had a number of good news stories. 
We have gotten companies that have developed things, and we 
have gotten depots that have moved out quickly, and we have 
been able to move capability into the field. On the other hand, 
we have also been plagued with all the glitches and foul-ups 
and delays that attend large bureaucracies.
    What we are here to do today is to take a picture of where 
we are, of our present status, what we have got in country, how 
well it is protecting our troops, and where we need to go from 
here. And so we are not going to be--we are not here to 
congratulate ourselves on accomplishments. We are not here to 
continue to berate and criticize this system which we built, 
which moves products and capability rather slowly to our people 
in uniform. But we are here to speed it up, to see what else we 
can do to move this process along and to provide better 
protection for our folks in uniform.
    And we have got some warfighters here today. And I am glad 
we have got them here because we also have some of our experts 
in developing systems. And I have already asked a couple of 
questions about some new things; perhaps we could put our 
Humvee and trucks in theaters. So I am glad we have our 
warfighters here, and they will be able to comment and perhaps 
have some interchange with some of our designers on some of the 
requirements that we could get into theater fairly quickly.
    So gentlemen, thank you for being with us today.
    And let me comment, also, that my good colleague, Mr. 
Weldon, who is the chairman of the Tactical Air and Land Forces 
Subcommittee and whose subcommittee has moved large amounts of 
money into the armor program and has been aggressively pursuing 
this program, he has also been very concerned. And he and I are 
partnering on this hearing.
    And Curt, did you have anything you wanted to say.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 77.]

     STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Weldon. If the gentleman would yield.
    Just briefly, Mr. Chairman, I want to thank you for your 
tireless work, along with the ranking member. Chairman Hunter 
has taken a personal interest in this issue to the extent that 
I have never seen in my 19 years in Congress, to the point of 
going out into the field, on his own and with key staffers 
assigning teams, to get the real story.
    Now we should not have to do that. Now I want to tell you 
that as a strong supporter of the military, I am not too happy 
today. Now maybe this hearing will make me happy.
    Now I am the Chairman of the Tactical Air and Land Forces 
Subcommittee that oversees the funding for these programs. Over 
the past year, while Chairman Hunter and staff have been out 
doing yeomen's efforts--it goes well beyond what a committee 
chairman should ever have to do--and basically looking over the 
shoulders of those men who are responsible for making sure that 
our soldiers are protected, we have been assured repeatedly 
that we have equipment in the field that in fact is meeting the 
needs. And I want to hear today that that is, in fact, the 
case.
    I want to applaud both you, Chairman Hunter, and especially 
the staff that you have assigned, most particularly the 
incoming staff director who has done a fantastic job on this 
issue on your behalf. And I want to ask one question. I am a 
strong supporter of the Marines. I am going back to Iraq on 
Memorial Day with a delegation to see the troops again for a 
short trip. But I want to ask the Marines to answer me a 
question today, because this offends me, as perhaps one of the 
most loyal supporters of the Marines. I want to ask if the 
commander of E company, Captain Kelly Royer--which was the 
company that suffered the most casualties and deaths during 
their six-month tour in Iraq, 185--who on May 31st of 2004's 
fitness report, and I quote, He has single handedly reshaped a 
company in sore need of a leader, succeeded in forming a 
cohesive fighting force that is battle-tested and worthy--but 
after he confronted the brass about the shortages threatening 
his men, it was changed, and the superiors found him to be 
quote, dictatorial, with no morale or motivation in his 
Marines.
    I want the Marines to answer the question about Kelly 
Royer. Is that what we do to an officer who reports that there 
are problems within his unit? And what is the status of him 
today? Is, in fact, he being railroaded out of the Marine 
Corps?
    So, Mr. Chairman, I would ask, when the Marines come to the 
table, that I expect answers on that question about this 
specific--if they want to go into a classified session when we 
talk about the personnel issues, then so be it, but I am 
quoting from Marine documents.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    And I want to thank my colleague, Mr. Skelton, who has been 
a great partner in this bipartisan effort to accelerate armor 
of our folks in theater.
    And Mr. Skelton, thank you for everything you have done, 
and the gentleman is recognized.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you. And let me join you 
in welcoming our witnesses and our panels this morning.
    Mr. Chairman, let me commend you for holding this hearing. 
This is good. This is very important. And I, too, would like to 
join my friend from Pennsylvania on seeking the answers 
regarding that company commander. That goes to the very heart 
of the credibility of the United States Marine Corps.
    We are dealing with the process of writing our bill, Mr. 
Chairman, as you know, and our paramount responsibility is 
still the oversight of our forces here deployed in Iraq. 
Today's hearing is very, very helpful. Men and women in our 
armed forces have exceeded what we, as their leaders, have the 
right to expect. This is most especially true of the soldiers 
and the Marines involved in the daily fight, to be given the 
responsibility to lead, to equip these men and women is to be 
given a very, very important job, and I consider that 
responsibility to belong to the members of this committee, to 
the Congress of the United States and the Constitution and as 
well, of course, as the witnesses today.
    The Army and the Marine Corps, with help from Congress, are 
making progress with armoring vehicles, and they have 
dramatically upgraded their force protection capabilities. Mr. 
Chairman, I believe if we had to grade our efforts to date we 
would have to give ourselves a C at best. As the recent article 
from the New York Times brought home again, we started our 
occupation in Iraq without a plan, without the right equipment 
for the fight, and we were too slow to react when it became 
clear that post-combat operations were just as dangerous, if 
not more so, as the combat originally was. A heavy price has 
sadly been paid for mistakes.
    Now, it is neither helpful or fair to even try to single 
out a person or an organization as being to blame. Instead, I 
believe we must make sure that at least something good comes 
out of this mistake and something good comes out of this 
hearing. I, again, Mr. Chairman, congratulate you for this 
hearing. I ask that the remainder of my statement be placed in 
the record.
    The Chairman. Without objection. I thank the gentleman.
    And our lead-off witness is Dr. Steve DeTeresa of Lawrence 
Livermore National Laboratory, a laboratory that heretofore has 
been engaged in the design of our strategic weapons systems 
that has lots of talented folks.
    And Dr. DeTeresa, you folks have put a team together and 
have put together some pretty substantial armor that you have 
moved into theater. Tell us about this.

 STATEMENT OF DR. STEVEN DETERESA, LAWRENCE LIVERMORE NATIONAL 
                           LABORATORY

    Dr. DeTeresa. Mr. Chairman, and members of the committee, 
thank you for inviting me to report on one of several force 
protection efforts that we at the Lawrence Livermore National 
Lab have been conducting under the joint sponsorship of the 
Defense Advance Research Projects Agency, or DARPA, and the 
Lawrence Livermore Lab.
    DARPA and Lawrence Livermore Lab have a history of 
responding quickly to urgent matters of national security, and 
we are privileged to have the recent opportunity to support our 
service men and women engaged in the Global War on Terror.
    This morning, I will describe our work to develop and field 
armor kits to convert cargo trucks to gun trucks for convoy 
escort and other missions requiring a mobile weapons platform. 
We have been engaged in this work at the request of this 
committee since December of 2003. I am happy to report that our 
efforts have already helped to save lives.
    This project has truly been a joint effort, and the work I 
am about to describe is that of many dedicated and hardworking 
Livermore Lab employees and consultants, DARPA program 
managers, Vietnam veterans, Army personnel and civilians, and 
U.S. Industrial partners.
    The concept of the gun truck was developed over more than 
five years of wartime experience in Vietnam. We saw many 
parallels between the need for these mobile weapons platforms 
in that conflict and in the current conflicts. Our work to 
develop a modern version of the gun truck began where Vietnam 
left off. And we were fortunate that much of the knowledge 
gained in this former war is preserved in the Fort Eustis 
Transportation Museum and in the memories of the close 
brotherhood of Vietnam gun truck veterans.
    Allow me to describe the details of this project using the 
presentation slides that you have before you.
    In your first slide, and in the poster over to my left, you 
will see an example of a gun truck, and I will take the time to 
describe what that is. As I mentioned, it is a cargo truck that 
is converted with add-on armor into a mobile weapons platform. 
It involves armor for the cab and an armored box that is on the 
back of the cargo truck with multiple weapons. The reason we 
use a cargo truck is that it can handle the excess weight which 
is within the capacity of the truck, and the primary purpose is 
for convoy escort and other defensive missions.
    On your second slide, you see a summary of where we are to 
date. Although small, we have made an impact. There are 31 5-
ton gun trucks in Iraq, and they are saving lives. And we 
believe more are needed.
    The Chairman. Now, Dr. DeTeresa, if you can put the picture 
of that gun truck back up there for one second. And we have got 
a picture of one of those trucks that was hit by an IED, is 
that your--that is, the Ironhorse effort took a heavy IED. And 
I saw the report from the driver who said that all seven 
personnel walked away with no injuries. That box is double 
hold, is it not?
    Dr. DeTeresa. That is correct.
    The Chairman. So you have got two layers of three-eighths-
inch-high hard steel, separated by about eight inches?
    Dr. DeTeresa. There are two layers of steel, and then there 
is also ballistic fiberglass.
    The Chairman. And explain why you have the steel and the 
ballistic fiberglass on the inside of that box.
    Dr. DeTeresa. Well, it provides additional protection, both 
from IED threats and small-arm threats. And the inside 
fiberglass is a small shield, so it is a very effective 
combination of materials.
    The Chairman. So you have got two layers of steel, 
approximately three-eighths-inch, eight inches apart, and then 
you have got an inch and a quarter of E glass inside that 
interior wall. Is that right?
    Dr. DeTeresa. Yes.
    The Chairman. Now, explain the ballistic glass along the 
top. I think this is instructive, as we go into the future 
here, in putting these armored systems together.
    Dr. DeTeresa. Well, this is one of the things we have added 
to this design since the Vietnam era. We were most interested 
in providing protection for the gun crew from the IED threat, 
and so what we have added is the transparent armored windows 
that you see on the sides of the box, allows the gun crew to 
have watch and have high situational awareness and yet be 
protected.
    The Chairman. Now, you will notice that my colleagues, most 
folks in this committee, have been to Bethesda and Walter Reed; 
we have looked at the casualty reports fairly extensively. A 
lot of the casualties are the gunners. In the case of the 
Humvee, it is usually the gunner who catches--who is in the 
blast plane and catches that fragmentation in the face, head 
and neck. And it is similarly, if you are in a truck, if you 
are standing up, even though you are actually a little below 
some of the blast planes, if that IED is close to the roadbed 
itself, the ballistic glass allows you to look out, to have the 
situational awareness without catching that fragment when that 
IED blows. And that is an area where I think you folks can do 
some real--give some real help to the Marines and the Army with 
respect to their Humvees because the Humvee troop carrier has a 
4-foot high or so steel high-hard or RHA steel sides to it, and 
if we had a slotted 12-inch high ballistic glass plane that we 
could slide over the rim, just like those ballistic glass panes 
on the rim of a gun truck, that would allow your folks that are 
riding in the troop carrier version of the Humvee to look out, 
to have what they call situational awareness and not catch the 
fragment from that initial IED blast.
    So is that--and I want to--when General Mattis comes up, we 
have talked about that a little bit because he has been head of 
the first division in a hot area, and I want to talk to you a 
little bit about that, General Mattis, to see if there is not--
you have at least initially expressed support for that type of 
a ballistic glass apparatus to put on the Humvees. In fact, I 
will tell you what, why don't you come up right now while Steve 
DeTeresa is here. Come on up, we are an informal bunch here.
    General Mattis, you have been the commander of the First 
Marine Division during some very severe fighting and in a very 
severe IED environment in the Fallujah AO. What do you think 
about the--first, about the adequacy of the Humvee troop 
carrier, but also the prospects of having a glass rim, a 
ballistic glass windshield along the top of that troop carrier?
    General Mattis. Sir, the glass can only help. What we 
cannot do with these armor solutions is encase the Marines and 
soldiers so well that they cannot see what is going on outside. 
Much of their survival depends on identifying the threat before 
they ever get to it. At this time, we are finding anywhere from 
40 to 60 percent of the IEDs before they are detonated. That 
has a significant impact on the reduction of casualties.
    Glass like this can assist greatly because the armor, while 
it is best--if something goes off, you have armor between you 
and the blast--but, eventually, you get to the point where the 
lack of observation actually has the opposite effect behind the 
armor, actually increasing your vulnerability.
    The Chairman. So anyway, Steve, if that is the case, 
General, if you had a rim, a 1-foot high glass rim around the 
troop-carrying Humvees in the back, that obviously would give 
you that ability to look out it, yet not catch the full--that 
blast in the initial IED explosion.
    Mr. DeTeresa, is that something that you folks at Livermore 
could fabricate fairly quickly for testing at Aberdeen?
    Dr. DeTeresa. Yes. We have actually thought about that 
design, so we could work on that quickly.
    The Chairman. Could you have a prototype in a week or so?
    Dr. DeTeresa. I would give it a little more time than that.
    The Chairman. Okay. Well, please proceed, Mr. DeTeresa.
    And General, hang tough right where you are at; you may 
want to comment on some of his testimony here, if you could.
    General Mattis. Yes, sir.
    Dr. DeTeresa. We will go back to the truck that we see on 
our left that we have in front of you, which was the 5-ton gun 
truck called the Ironhorse, which took a hard hit from an IED. 
As we heard, all the crew members survived with relatively 
minor injury. And then the other feature of the truck--the 
truck was damaged beyond repair, but all the armor was 
recovered and has been moved to a new truck. And it is back out 
on the road. That is part of the design of the kit that we 
have.
    The next poster we would like to show is an example of what 
we heard before, the troop-carrier version of the box made from 
the Stryker steel. It is a lighter version, so that you can 
take the weight with troops in the back of the cargo truck. 
This vehicle was also, at least in one case, subjected to an 
attack by a car bomb, a vehicle-borne IED. And we have another 
poster that shows the damage to the truck. And again, all crew 
members survived.
    I think that this points out that with relatively simple 
armor kits, especially with these heavier 5-ton gun trucks, 
that we can save lives pretty simply.
    Mr. Spratt. Mr. Chairman, one question, were all of these 
adaptations made in the field?
    Dr. DeTeresa. The kits were sent to the field and were 
assembled in the field, but the kits were designed here and 
tested thoroughly at the Aberdeen Test Center.
    The Chairman. What is the thickness of that Stryker steel 
that you have got in the back there, Mr. DeTeresa?
    Dr. DeTeresa. Actually, that is something I do not recall 
exactly. I believe it is a little bit over a quarter-inch 
thick, as I remember; but it has got additional armor with it.
    The Chairman. Okay.
    Dr. DeTeresa. We have jumped around a bit, and if we are 
going to follow my package of----
    The Chairman. Go right ahead, Mr. DeTeresa. Reassemble and 
continue to present.
    Dr. DeTeresa. Let me point out on slide number five, which 
you have in front of you, what we have is a comparison between 
an up-armored Humvee and the 5-ton gun trucks. And let me tell 
you up front that we have always believed--and we still 
believe--that the best convoy escort is provided by the 
combination of these vehicles, not one or the other. And that 
is based on the experience in Vietnam, and it is based on 
things that we are seeing today.
    The up-armored Humvee obviously gives you the nimble 
vehicle that is able to move around as a commander vehicle and 
a scout vehicle. But the 5-ton gun truck, by virtue of the fact 
that it can handle the additional armor and have multiple 
weapons, provides a much more serious convoy protection 
platform. And there are many things we have compared here, but 
in the end, I will save some time and say that both will make 
the effective convoy escort as we have seen in Vietnam.
    We have one last poster which is an example of 5-ton gun 
trucks that were being made--we call them homemade gun trucks--
that were being made in the field. Pointing out that the troops 
recognized the benefit of using a 5-ton truck for armoring and 
providing escort to convoys.
    This was one of our motivations. When we saw this, we said, 
we can do better; we can provide them with a very good kit that 
is easy to assemble and provide substantial armor protection, 
knowing what we know from the history of Vietnam. So that is 
where we got to in our efforts was to improve that situation, 
recognizing that this was something that was needed and was 
actually being developed by the troops in the field.
    The Chairman. Mr. DeTeresa, was that one of the ones 
assembled at the Mad Max shop--what they called the Mad Max 
truck in Balad?
    Dr. DeTeresa. Stunt Works is the other name. I am not sure 
where this one came from, but actually, I believe there are 
several kinds of those facilities around the country where 
people are doing this.
    I would like to skip all the way to our various view graph, 
which is our timeline for the project. I just want to go over a 
few points.
    I mentioned that we started this work at the request of 
this committee. That was back in December of 2003. In the first 
phase of this, in the matter of the time period from January--
end of January to April 2004, we had designed, built and tested 
at Aberdeen Test Center the first prototype, so we were ready 
to go. Over the next few months, there were lots of discussions 
about requirements and features that were needed to send the 
kit into field, and the committee helped to expedite that.
    And finally, in July, we were able to send the first 
prototype, which was well received by the unit, and soon after, 
we received an operational needs statement requesting 28 more 
kits. To meet that, we pursued funding, and again, the 
committee helped and introduced us to some of the DARPA 
efforts. And jointly with DARPA, we got the funding to build 
the 30 kits actually that we sent, and that was done over the 
time period from October to December; we built and fielded 
those 30 kits. They were built over a period of time from the 
end of December to January, and now, all 31 are on the road, 
including the ones you have seen in some of the posters here.
    The Chairman. Mr. DeTeresa, what type of weaponry will the 
gun truck accommodate?
    Dr. DeTeresa. Typically, a gun truck handles crew served 
weapons, machine guns. And that is the purpose of this. As a 
mobile weapons platform, you want substantial firepower on the 
back of these trucks, meaning multiple weapons. And I actually 
have a slide, but I will just describe that now. The reason for 
multiple weapons--and for reference, it is number nine--besides 
the greater firepower, you have got redundancy in case of 
weapon malfunctions, which does happen, and you are able to 
repel simultaneous attacks in different directions. So to make 
a true gun truck, you really need multiple weapons. And 
actually, that has been a little bit of an issue with the folks 
who have our gun trucks over there. They have a hard time 
getting the multiple weapons.
    The Chairman. But it takes 50's.
    Dr. DeTeresa. Fifty calibers are preferred, but smaller-
gauge weapons are also useful.
    The Chairman. Okay.
    Dr. DeTeresa. If we skip to ten, one of the things I wanted 
to highlight is the fact that we have tested this thoroughly at 
the Aberdeen Test Center. You will see examples of the 
prototype box, which was subjected to a live IED test. And you 
will see holes in the side of the armor. You will see damaged 
ballistics windows. The result of all that was nothing got 
through the box. This is substantial. And any of the typical 
IEDs that we see out there will not penetrate this armor. So it 
is a very simple design and a very effective one.
    And in addition, they have also tested the armor against 
RPGs and minimized the impact of an RPG by stripping all the 
attending frags and minimizing any of the blastings effects. 
So, again, by virtue of the fact that this is a cargo truck 
that can handle a substantial weight, there is nothing magical 
about the armor system. It provides very substantial 
protection.
    I would like to skip to number 12, in the interest of time, 
again, to again point out that there are 31 of these gun trucks 
in the field and to point out also that the feedback on these 
has been very positive. We have had comments from the gun crews 
that they feel much safer and they feel well protected and that 
these are clearly superior to anything they have used before.
    One of the other satisfying things about this is that the 
crews and the troops that are engaged in this, providing 
feedback and suggestions for improvement, and we strive to 
continue to improve the design and make this a better weapons 
platform for the troops.
    And 13, I think it is important to acknowledge many of the 
DOD organizations that have made this possible, provided a lot 
of critical support. First of all, the U.S. Army Developmental 
Test Command and their sub-organization Aberdeen Test Center 
was instrumental in all the ballistic and road testing and 
actually helped with some aspects of the design. And those 
folks were hardworking folks who did a lot of work to get our 
kits up to speed and sent out.
    The Army Research Lab has always been our partners in 
looking at armor materials and performance, and they have 
provided a lot of valuable input. We have not talked about it, 
but the cab kit that we designed was actually based on an 
initial design by the U.S. Marine Corps. And this is at the 
Albany, Georgia, Logistics Base for the 923 truck. They shared 
that design with us. We improved it and provided that for the 
field.
    And then the Tank and Automotive Command of the U.S. Army 
was helpful in expediting these kits to the field when we got 
to the point where we could ship.
    So what I would like to do is summarize with 14 and say, we 
have produced a kit which is relatively inexpensive. I did not 
mention the number, but $40,000 will provide a full gun truck 
kit, which includes the cab armor. It is a highly effective and 
highly survivable mobile weapons platform. And we believe that 
the combinations of these gun trucks and up-armored Humvees are 
the right vehicles and the right combination for convoy escort. 
I will also mention that these trucks are also valuable for 
troop transport and perimeter and checkpoint security.
    If I may, I would just like to make a closing statement. I 
would like to thank you for the opportunity to discuss this 
element of force protection and also to thank you for your 
continued support and concern for the safety of our men and 
women in the military. Thank you.
    The Chairman. Thank you, Mr. DeTeresa. And thanks for 
laying that out. I thought that was a good context to bring up 
our next panel. And so we are going to move, without further 
ado, to--we will bring our next panel up. And we will have--and 
we are going to get, for the committee, the state of armor in 
the theater, where we are at, what the production rate is, and 
how far away we are from completion.
    And General Mattis, if you want to stick around right 
there, I think we have got enough chairs, or you can move back 
to an observation post, whichever you want. Why don't you hang 
around there as we bring up General Joe Votel, who is director 
of the IED Defeat Task Force; General Jeff Sorenson, United 
States Army Deputy for Acquisition and Systems management; and 
Brigadier General William D. Catto, United States Marine Corps 
Commanding General, Marine Corps Systems Command?
    Come on up, gentlemen.
    General Sorenson, you are going to lead off here.

   STATEMENT OF BRIG. GEN. (PROMOTABLE) JEFFREY A. SORENSON, 
 DEPUTY FOR ACQUISITION AND SYSTEMS MANAGEMENT, OFFICE OF THE 
  ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS AND 
                          TECHNOLOGY)

    General Sorenson. Yes, Chairman Hunter, Congressman 
Skelton, and distinguished members of the committee, thank you 
for this opportunity to provide you an update to the status of 
current force protection programs.
    Since our journey began in August 2003, we have increased 
the number of armored vehicles deployed to theater by a factor 
of over a hundred fold in 18 months. This serves as testament 
to the tremendous support of our industrial partners, our 
government program management offices and their supporting 
engineer and logistics centers, and our test community.
    We have also increased delivery of body armor, IED 
countermeasure systems and changes in tactics and training to 
provide a holistic approach to enhancing the force protection 
capability of our deployed forces.
    Your support to provide resources to fund our efforts is 
greatly appreciated, and with your continued support, including 
quick passage of the FY 2005 supplemental, we will continue our 
efforts to satisfy theater force protection requirements in an 
expeditious manner.
    Following my other colleagues' introductory remarks, I will 
discuss in detail our current armor status with the charts that 
have been provided to you and will be ready to answer any 
questions that you have. Thank you.
    [The joint prepared statement of General Sorenson and 
General Votel can be found in the Appendix on page 82.]
    The Chairman. Okay, thank you very much.
    General Catto.

   STATEMENT OF MAJ. GEN. (SEL) WILLIAM D. CATTO, COMMANDING 
    GENERAL, MARINE CORPS SYSTEMS COMMAND, U.S. MARINE CORPS

    General Catto. Chairman Hunter, Congressman Skelton, 
honorable members of the committee, thank you for the 
opportunity to appear before you to discuss the state of 
vehicle armoring in the Marine Corps today. I am accompanied 
this morning by my Deputy Commander, Mr. Barry Dillon.
    As you may remember, the Marine Corps forces departed Iraq 
for the first time in October of 2003. At that time, none of 
our tactical wheeled vehicles were equipped with armor. A month 
later, in November, we received confirmation that as part of 
Operation Iraqi Freedom II, we would return to Al Anbar 
province, which includes Fallujah and Ramadi.
    When one of our forces took responsibility for this 
province in March of 2004, 92 percent of their 3,049 vehicles 
had armor installed. Armor was available in Kuwait for the 
remainder of the vehicles, but operational timeline did not 
allow for installation prior to crossing the line of departure. 
As operation tempo allowed, the remaining vehicles were 
armored.
    I am pleased to be able to report to you today that 100 
percent of our wheeled vehicles involved in combat operations 
in Iraq, Afghanistan or the Horn of Africa are equipped at a 
minimum with zonal two, level two armor.
    The current wartime environment is ever changing as we face 
a thinking, adaptive enemy. Therefore, we continue to address 
the immediate and anticipated needs of our warfighters in 
theater in multiple ways, ensuring that we design, fully test 
and manufacture armor solutions that perform well while at the 
same time ensuring that it does not severely degrade the 
operational capabilities of existing vehicles.
    Each successive armor enhancement has been designed and 
vetted with the operational forces in the fight. Our vehicle 
armoring program has evolved over the last 17 months through 
now three generations of armor.
    The first generation consisted of level three protection, 
comprised of commercial, off-the-shelf components or three-
sixteenths-inch high hard-armored steel doors and flanks. At 
that time, they were the best available material solutions.
    Our second generation, offering level two protection, 
consisted of three-eighths-inch rolled homogenous armored zonal 
kits. By August 2004, 100 percent of our vehicles had this type 
of armor.
    Our current or third generation marine armor kit consists 
of integrated components offering enhanced level two protection 
as can be seen in your handouts and the display boards. By 
addressing the details of our armoring strategy in my written 
statement for the record, I would like to specifically 
highlight the most recent measures we are taking in theater.
    Since mines are a growing threat, we are expediting the 
delivery of Marine armor kit underbodies for organizational or 
battalion level installation into 400 Humvee A2s. Production of 
these underbodies will be completed in the next 30 days. Within 
the next 60 days, we expect to complete production of 
underbodies to upgrade the armor of our 5-ton medium trucks and 
logistic support vehicles.
    Additionally, with the assistance of the Chairman and his 
staff, the Defense Logistics Agency in Kuwait has made 
available up to 450 sheets of 6-by-6-foot rolled homogenous 
armor for use in theater. The Marine Corps Logistics Command, 
which is our depot, has completed its assessment of this 
material to determine the best and most expeditious and 
effective means for in-theater cutting and installation of this 
steel for use as rocker panels of our base Humvees and 
sustainment for 5-ton truck underbodies.
    The operational tempo determines the rate at which we can 
pull our tactical vehicles out of service to install upgraded 
protective solutions, therefore, we are continuing looking to 
identify production and installation capabilities and 
opportunities to enhance the speed and production and 
installation without degrading operational force capabilities. 
A perfect example is our armor installation facility 
established at Camp Al Taqaddum in Iraq.
    Finally, with your continued support, enabled by speedy 
passage of the fiscal year 2005 supplemental, we can continue 
our efforts to quickly meet emerging vehicle armor protection 
requirements to stay ahead of an adaptive enemy. I will be 
happy to answer any questions that committee members may have.
    [The prepared statement of General Catto can be found in 
the Appendix on page 90.]
    The Chairman. Thank you.
    General Votel.

   STATEMENT OF BRIG. GEN. JOSEPH L. VOTEL, DIRECTOR, JOINT 
 IMPROVISED EXPLOSIVE DEVICE DEFEAT TASK FORCE, HEADQUARTERS, 
DEPARTMENT OF THE ARMY, OFFICE OF THE DEPUTY CHIEF OF STAFF, G3

    General Votel. Yes. Mr. Chairman and Congressman Skelton, 
thank you very much for the invitation to be here today, and 
members of the committee. Sir, we would also like to express 
our thanks to Mr. Bob Simmons and Mr. Norm Morris on your 
committee who have been so instrumental in helping us breakdown 
obstacles in fielding these devices that we are going to 
discuss this morning. Thank you very much for that.
    You are aware, from our previous classified discussions, 
the sensitivity of the area in which we are talking this 
morning. I am going to do my best to answer all of your 
inquiries as part of my presentation----
    The Chairman. You can keep it as general as you want to, 
General.
    General Votel. Thank you, sir.
    We are continuing to make progress in a number of areas, 
but as you noted and as we agree, obviously, there still is 
much to be done. There are still many soldiers, Marines, airmen 
and sailors who are being injured by these devices, so we 
continue to focus in on this area.
    I look forward to updating you and members of the committee 
here on this particular area of our holistic approach, 
electronic countermeasure devices, following my counterparts. 
Thank you, sir.
    [The joint prepared statement of General Votel and General 
Sorenson can be found in the Appendix on page 82.]
    The Chairman. Okay. Thanks. And we will move--and I 
apologize to other members for taking so long to move through 
our first two panels to get to questions, but I think it is 
important to set the stage and understand what we have.
    General Catto, one question on this. The underbody steel 
that we are going to put on the Humvees operating in the 
western AO there where we are taking some triple stack mines, 
at this point, they were going to--they had the armor, the RHA, 
available in Kuwait. Do the Marines have possession of that 
right now, that steel?
    General Catto. Chairman Hunter, I just talked with the 
folks at DLA. They have given us 450 pieces of the armor. We 
are looking now at how are we going to cut it and get it there. 
The plan is to do it as rapidly as we possibly can. In fact, I 
talked to General Payne this morning at our depot about how we 
are going to do that.
    The Chairman. Are you going to cut it with the equipment 
that they have got in Kuwait? They have got that heavy 
machinery that is available to cut it in Kuwait. Are you going 
to move it up in already cut pieces?
    General Catto. We will cut it to size there, prepare it and 
then move it up so we can install it at the battalion level in 
western Iraq, so they do not have to do the work, other than 
installation.
    The Chairman. How are you fixed for plasma cutters and the 
requisite attachment stuff, your bolts, your nuts, the 
accessories? Do you have plenty of those?
    General Catto. I think, at this time, we are fine; if we 
are not, I will let you know and ask for help.
    The Chairman. Okay. Gentlemen, if you could just give us 
very quickly--and then I want to move to Mr. Skelton--the 
percentage of Humvees that are level one, and that is 
obviously, that is the 1114, that is the manufactured Humvee, 
the percentage of those that are in theater and the percentage 
that are level one, as opposed to level two and three. Have you 
got that basic info, General Sorenson?
    General Sorenson. Yes, sir. If I can refer you to the 
spreadsheet charts that are in your packet there, the first one 
entitled, Armor Summary. If you go to the top line, identified 
as UAH, meaning up-armored Humvee, this is the 1114 series you 
speak of. And today, as of the 28th of April, the latest report 
out of the area of responsibility (AOR) is that they are at 
almost 80 percent full of level one requirements for the up-
armor Humvee.
    With respect to add-on armor kits for the Humvees----
    The Chairman. Now when you say, ``of the requirement,'' 
what does that mean in hard numbers?
    General Sorenson. Sir, if you, again, go across here--if I 
can refer you to the spreadsheet that we passed out. You have 
the AOR requirement, which at this point in time is 10,079. Now 
that was an increase just identified here at the end of March. 
The previous requirement was 8,105, which was in August 2004, 
and to date, as we have predicted before, we were going to 
complete that requirement here in the May timeframe. However, 
because of the fact that the requirement has increased, we are 
now projecting July 2005 that all up-armor Humvees and 1114s--
--
    The Chairman. So you will have how many in theater at that 
time?
    General Sorenson. At that time, it will be over 10,000.
    Mr. Reyes. Mr. Chairman, I have a question. When you refer 
to the area of operations, you are referring to the areas of 
both Iraq and Afghanistan?
    General Sorenson. That is correct.
    The Chairman. General Catto, same question.
    General Catto. The up-armor Humvees?
    The Chairman. Yes.
    General Catto. We have 37 of the foreign variants that we 
bought very early when we went into Iraq back in March. We also 
have over 475 M-1114s that we have received through 
Multinational Corps Iraq that have come through the joint 
community for our use. Additionally, we have 498 that are on 
order today, and as the production capability ramps up, we will 
be receiving them.
     I would like to stress one thing, also. As we work through 
the M-1114 shortages, the joint community and the Army have 
been very helpful with trading assets for us in terms of, the 
guys who need it the most got the assets.
    The Chairman. So in theater, you have received up-armored 
Humvees from Army units and other parts of Iraq?
    General Catto. 475 that have come from Multinational Corps 
Iraq and the joint community that have been parceled out to us 
through the Army productions.
    The Chairman. Okay. General Mattis, do you have any take on 
how many Humvees you have got in our AO in Iraq? How many were 
in the Fallujah AO?
    General Mattis. Mr. Chairman, you are aware that I departed 
Iraq about six months ago, but it is around 2,675 is our latest 
reporting, sir.
    The Chairman. That is a total Humvee pool.
    General Mattis. Yes, sir.
    The Chairman. And how many of those are fully up-armored? 
Maybe General Catto has got that.
    General Catto. Well, we have 100 percent of our A2s and 
baseline Humvees are armored at level two with the zonal kits, 
and they have been that way since August of 2004.
    The Chairman. Okay. But how many of those are at level one, 
which is the up-armor?
    General Catto. 475 that we have had loaned to us through 
the Multinational Corps Iraq, and the 37 foreign that we bought 
very early in the campaign when we went back.
    The Chairman. Okay. Thank you.
    Gentleman from Missouri, Mr. Skelton.
    Mr. Skelton. I will ask just one question--any of you can 
answer this. I am privileged to represent Jefferson City, Cole 
County, Missouri. A National Guard unit was activated and given 
orders to go to Iraq. Through local funding and local steel, 
that was cut to specification and later approved by Aberdeen, 
their vehicles were later armored. What other examples have 
you--and I notice you have not mentioned any such situations--
how many other examples of local self-help have you experienced 
in helping soldiers, Marines, National Guard, Reserves up-armor 
the vehicles for the young folks who are being deployed? Any of 
you.
    General Sorenson. Sir, I will try to answer that question 
first.
    I think there have been a number of examples where people 
have gone to the local communities and tried to acquire some 
steel to put on their vehicles. We have been aggressive in 
pointing out to them that if the right steel, right composition 
of steel, whether it is RHA, the rolled homogenous armor or the 
high hard steel is not applied, then, in an IED incident, they 
may be causing more problems than solving.
    We have, I think at this point in time, gotten ahead of the 
byway with respect to putting armor on vehicles. As you will 
note here in the data that was provided, in many cases, we are 
over requirements in terms of being able to satisfy what is 
necessary. In fact, we have at this point in time with respect 
to a total of armored vehicles, we have at this time 36,000 
vehicles that basically have the armor. Now we are in the 
process of changing out the level three, which essentially was 
the headquarter's, Department of Army approved, steel provided 
to units, provided to theater to put on vehicles and replacing 
that with level two, which is a more hardened with ballistics 
glass capability for the units and for the vehicles.
    Mr. Skelton. I merely say I am proud of the citizens of 
Jefferson City that took it upon themselves when the military 
was not up-armoring the vehicles at that time.
    The Chairman. I thank the gentleman.
    The gentleman from Colorado, Mr. Hefley.
    Mr. Hefley. Thank you very much, Mr. Chairman.
    Well, you know, it seems obvious that the IEDs are the big 
threat, and that is what we are talking about armoring against. 
And we have made huge investments in defeating the radio 
frequency detonator IEDs with the use of jammers. So the enemy 
adjusts to our technology it appears and are now beginning to 
use more and more hardwired--or at least that is my 
information, you can correct me if I am wrong on that. And I 
would like to know what we are doing to defeat the high 
hardwired threats. And also, have we explored the use of 
spectral contrast or terrain analysis to find these hardwired 
devices before they can be employed?
    General Votel. Sir, I think I can address that one for you.
    Certainly, we can characterize the enemy by being very 
adaptive, very smart, very learning, very innovative in what he 
is doing. And it is very clear to us from watching him and 
studying him that he watches how we base our operations, 
attempts to learn from those and then attempts to exploit what 
he thinks are vulnerabilities. In theater, the radio control 
device, initiated device, does remain the primary threat that 
we are seeing. We have seen him do some other things and move 
to, as you have suggested, some of the hardwired capabilities.
    In general, some of the things that we are trying to do, 
working with the services in helping us, is use some of our 
aerial platforms, be they from an aero stat or from a UAV or 
from some other type of fixed wing aircraft, to help us with 
change detection technology that will allow us to identify 
anomalies on the ground that will help us identify where these 
devices are in place.
    We are also pursuing a strategy for persistent 
surveillance, things like NS microwave, the JLENS Raid Aero 
stats and towers that we are moving in theater that provide us 
long-term persistent surveillance over the high likelihood 
areas where IEDs are placed so we can provide the long-term 
persistent stare, if you will, that allows us to see what is 
happening there.
    And then I will tell you that I think the third thing that 
we are doing is really helping focus on training for our 
soldiers and Marines. A key piece of this, of identifying any 
anomalies on the ground, really exists in the eyes of our 
soldiers and Marines who are on patrol, be they from vehicles 
or on their feet. They clearly are our best sensor. So what we 
are attempting to do is make sure that we have provided the 
best information and provided the most relevant current 
training and situational awareness so they understand the 
environment that they are going into and, more importantly, 
they understand the enemy that they are fighting and how he 
operates.
    Mr. Hefley. I see the light is still green, and let me ask 
one other quick question.
    How did we get ourselves in this position? Did we have no 
idea going in there that we would need armored vehicles? Are we 
surprised that the IEDs became such a big deal?
    General Catto. If I may, Congressman Hefley, remember this 
has been an evolving theater. When the Marine Corps went back 
in Iraq in early March, the threats were 60-millimeter, 81-
millimeter mortar kinds of rounds. That has evolved from the 
lower kinds of munitions, 122- to 155-millimeter artillery 
shells to 500-pound bombs, to double-stacked anti-tank mines, 
et cetera.
    As we have added armor, they have added greater explosives, 
so as General Votel discussed, it is not just one solution, it 
is a combination of good tactics, training and procedure with 
our soldiers and Marines on the ground. It is using aerial 
assets such as UAVs, fixed-wing assets, EA6s for our electronic 
countermeasures in the air; and it is using IEDs and things 
like explosive-sniffing dogs.
    It is a game of improvements, changes, counter 
improvements, changes. So there is no one solution.
    General Mattis. Sir, if I could take a stab at that, as 
well, if I were to sum up what I learned after 30 years in this 
business, all combat is one improvisation after another. That 
is all it is. The enemy has not made all of its adaptations 
because they wanted to; they have been forced into positions.
    For example, when we found their hard wires, the initial 
way they set off IEDs, they went into direct attacks with small 
arms. That didn't work out well for them, so they had to adapt 
again. They went for the radio frequency. You are aware from 
closed sessions what we have done to check and checkmate those, 
and we forced them into other indirect fire modes.
    But this is combat, and this is a thinking enemy up against 
us. We are out-thinking them and we will continue to out-think 
them.
    I will tell you that something as small as a rifle scope 
that we are putting on every Marine's rifle, thanks to the 
money provided by the Congress, has turned out to be very 
helpful in spotting those little antennas and the red wires 
going off into the ditches and that sort of thing.
    It is a very complex issue. We improvise better than the 
enemy improvises; but it is a bloody issue, and we have to keep 
improvising to stay ahead of it.
    The Chairman. Thank you.
    The gentleman from Massachusetts, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman. Thank you very much, 
Generals, for appearing.
    General Sorenson, a recent GAO study found that the Army 
has been consistently unable to meet reoccurring spikes in 
demand for up-armored Humvees and add-on kits, which obviously 
is a surprise to members of the committee who have worked hard 
on this, including the chairman.
    The GAO faulted the Pentagon for the shortfall, because it 
didn't ramp up armor production to the maximum level. It also 
pointed out that the Pentagon didn't release funds in a timely 
and predictable manner, even though money had been appropriated 
and was available.
    The GAO recommended several actions for the Army to take. 
They recommended that the Army update its war reserve 
requirements at least every year to account for change in 
operational tempo; and second, develop computer models that can 
estimate supply requirements to deploying units as part of 
prewar planning.
    Can you comment on what the Army is doing to follow up on 
those GAO recommendations?
    General Sorenson. Yes, Congressman. Let me give you some 
insight into what we are trying to do as we go forward here in 
planning for future contingency operations and future 
operations.
    To date, what you have found in many cases as we tried to 
ramp up, as previous Congressmen asked the question, Did we not 
know what was going on, after the March to Baghdad, there was 
clearly a need and an interest in the theater commanders to 
move to a more motorized force. As the motorized force was 
becoming more apparent on the streets, the enemy began to take 
advantage of it and began to attack us with IEDs.
    Subsequent to that, we began to try to do what we could do 
with the vehicles we had, such as the M-1114, such as putting 
armor on trucks, trucks that were never designed to carry armor 
in some cases, and so we had to go through a lengthy process to 
do that.
    What we have learned from all this activity is that in the 
future, we are going to be fighting as an expeditionary Army, 
we are going to be fighting as a modular force, and we are 
going to be fighting an asymmetric enemy. In order to contest 
that, we have to be more flexible. So as a consequence of what 
we are doing right now with our trucks and vehicles is 
developing an armor strategy by which we will put armoring into 
the chassis--armoring into the ballistic glass, armoring into 
latches, armoring into the frame, increasing the engine 
capability such that a vehicle would be almost like a 
chameleon.
    In an operation in terms of the move to Baghdad, where 
speed was more of the essence, maybe you don't need the armor, 
but as you go into stability operations, because that chassis, 
because the engine, because the latches, because the glass are 
there, we then hang the armor package on it; and it now 
becomes, as opposed to an unarmored vehicle that was needed to, 
if you will, proceed quickly, an armored vehicle that now 
conducts stability operations.
    That is what you are going to see in terms of the future. 
And we are working at that right now with the consortium of 
vehicle contractors and working through at this point in time 
through fiscal year 2006, beginning to let contracts for these 
kits that can be added on to the vehicles in the future.
    Mr. Meehan. General, how much of the fiscal 2005 
supplemental does the Army intend to use to purchase these M-
1114 Humvees?
    And it was my understanding that the Army is planning a 
transition from the M-1114, the fully armored, to the M-1151 
version. What is the Army's plan for purchasing fully armored 
1151 Humvees with both the underbody and the perimeter and 
overhead kits? And how many and when?
    General Sorenson. Sir, as we talked, as I was just 
mentioning, we are going to buy the 1114s. We are going to buy 
about a thousand 1114s through this next year. As we transition 
to what we call the 1151-1152 vehicle, we will be procuring 
those that will essentially have the frame, have the engine 
armored with an underbody protection capability such that we 
can add these packages on. And the intent is to move from the 
1114, which is basically a standard armored vehicle that at 
this point can only conduct stability operations to the point 
where we can get a vehicle both to do combat operations and 
then stability operations.
    Mr. Meehan. General Votel, I am concerned the Army has not 
fielded the best jammer technologies for the troops in Iraq. 
The Army has spent $140 million sole-source contract to procure 
the older Warlock jammer systems which have limited 
effectiveness. At the same time, you are investing $500 million 
in a competitive program for rapidly developing, proving and 
fielding the next generation of jammer technologies.
    How do you balance the immediate needs of our troops with 
investing in what I think will be a more proven technology for 
the future?
    General Votel. Thank you, Congressman.
    That is a difficult balance, and it is one that we are 
constantly looking at. What is the overriding factor for us is 
trying to provide protection to our soldiers and Marines and 
forces deployed right now and trying to address the immediate 
requirement; and that is what is taking priority for us.
    So we are at the same time developing a next-generation 
system, if you will, which is in testing as we speak here. We 
are also continuing to procure some of our legacy systems that 
are currently fielded. We are looking at ways to take systems 
that we have in the field and give them additional capability, 
and then we are doing things, as the chairman identified here, 
of putting out rapidly developed, low-cost systems that can 
address a portion of the threat.
    Mr. Meehan. Mr. Chairman, I just want to compliment the 
General, you and the task force's use of the Backscatter x-ray 
imaging for force protection in Iraq. I am familiar with that; 
there is a company in Massachusetts that I have visited, and it 
is a source of pride to us, and I am just happy to see that 
Backscatter x-ray imaging.
    General Votel. We have had two reports in the last two 
weeks where the Backscatter, the van model, has actually helped 
us identify vehicle borne IEDs (VBID), giving indication to a 
soldier and/or a Marine in each situation, and allowed us to 
deal with that in another manner.
    The Chairman. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Weldon.
    Mr. Weldon. Thank you, Mr. Chairman. And I thank you for 
appearing here. I apologize for having had to go out and back, 
but I had a number of other things going on, like our 
colleagues do. But this is an extremely important hearing to 
all of us, and to me personally as the chairman of the Tactical 
Air and Land Forces Subcommittee.
    As you heard me say in my opening statement, I am not a 
happy camper right now. I am embarrassed and I feel let down. I 
feel let down because the responsibility of this committee is 
to oversee the safety and services of our military personnel 
when they enter harm's way, and they have done that. It was 
this committee that stepped out ahead of this Administration a 
year ago, saying we could not stand for the budget that was 
being requested which called for a cut in the Army's net 
funding for this year. And we requested a $25 billion 
supplemental when the White House didn't want it.
    It was this committee who saw the need to provide 
additional support for our troops, and we fought that battle 
even though we knew that it would cause us problems personally 
in the case of the members on this side of the aisle with our 
Administration, but we did the right thing.
    It was this committee back in 1996 when the Pentagon said 
they didn't want to arm the Predator. It was this committee 
that put language into the defense bill that called for the 
armoring of the Predator when the services did not request it, 
and we had the vision to see. And three, four years later 
everyone took credit for what this committee had done, even 
though the first year we did it in a bill that was blocked by 
the Pentagon.
    And so I come to this hearing with a sense of outrage. I 
can't tell you the number of homes I have sat in with families 
whose soldiers have come home in body bags. I know you take the 
loss of any life seriously. I sat in the home of a young Marine 
in Bridgeport, Pennsylvania, who had just married before he 
went in; and I tried to console his wife and his parents.
    Last week, I was at another event for a soldier that fell 
in January, and I was with his brother, who is still serving in 
Iraq, and his parents. And like our colleagues here, we have to 
live with this, and we take it very seriously.
    When we think and have been told that a problem has been 
resolved, or is being resolved, then we believe that. This 
staff director should not have to go out to companies to 
double-check whether or not they are doing what they said they 
would do, but we did it.
    And I would thank you, Mr. Chairman, for the 
documentation--and I would urge all of our colleagues to look 
at that to give you the complete assessment of what this 
committee has done on this issue of armoring and providing 
personal protection for the troops. We will take a back seat to 
no one in that support.
    But what really offends me, and I have to say this to my 
Marine Corps friends--and you remember very well my first term 
in Congress; I fought the Administration and I fought the 
current Vice President and led the effort to restore the V-22 
program, which took us 12 years. You know I was in the 
forefront of that, and it was tough; but we won the day because 
it was what the Marines deserved to have to provide the over-
the-horizon medium lift capability they needed.
    I am absolutely overwhelmingly offended when I read reports 
that a Marine captain, Kelly Royer, commander of E Company, a 
company that suffered the largest casualties of any company in 
the theater the six months they were there, is perhaps being 
railroaded out of the Corps because he simply spoke up about 
the troops that he was leading.
    Now I am not going to perceive to know who Royer is. I have 
no idea who the guy is. I never met him; I never talked to him. 
But I do know he came out and publicly spoke out about his 
frustration with his company not being properly protected.
    Instead of what I think should have been the proper 
response, which was to have everybody join in and fight the 
system and demand that the work be done to protect those 
troops, it appears as though--it appears as though he is being 
singled out now, even though past reports of his career, which 
I read into the record and I am going to read into the record 
again, were positive.
    ``On May 31, 2004,'' his fitness report and I quote, ``he 
has single-handedly reshaped the company in sore need of a 
leader, succeeded in forming a cohesive fighting force that is 
battle tested and worthy,'' unquote. Those are pretty strong 
words. And then I have other quotes that I assume came from his 
personnel file.
    Now he is being found to be dictatorial with no morale or 
motivation in his Marines. Perhaps it is just coincidental that 
the one report was before he spoke out and the second was after 
he spoke out. But I am going to tell you, as one Member of 
Congress, I am not going to sit still until we find out. If it 
can't be done in open session, then we want a closed session.
    Will you tell us why the reports about Captain Royer have 
been changed?
    And so, General, I would ask you and the public to tell me, 
do you have any indication that there is any attempt to punish 
directly, or indirectly, Captain Royer for having spoken out 
about the problems of E Company?
    General Mattis. Congressman Weldon, I can assure you, I can 
unequivocally state that this has nothing to do with him 
speaking out. I used to speak to Captain Royer probably on a 
several-times-a-month basis. My headquarters was in Ramadi. I 
didn't focus on it any more than the other places.
    But you know, sir, have you ever been disappointed when you 
found out something that you didn't know what was going on? 
When NCOs come forward, when sergeants come forward with a 
concern, I have always found it very well advised for an 
officer to dismiss the NCOs' concerns. The pressures, as some 
of you who have served, the pressures you understand on company 
and battalion commanders in the midst of a tough fight are 
beyond my ability to explain them.
    Take one of our most articulate associate justices of the 
Supreme Court, Oliver Wendell Holmes, Jr., who was an infantry 
officer in the Civil War; and he said--speaking to his fellow 
veterans many years after the war, he said, ``We have shared 
the uncommunicable experience of war.''
    So I am probably not going to articulate it well, sir, but 
I would tell you the last thing that any commander, any 
battalion commander, ever wanted to do--and the battalion 
commander joins us here today--is to relieve one of his company 
commanders. The pressures on a company commander in combat, 
especially one in an intense fight, to hold the key terrain of 
Ramadi--and that was the key terrain; for all you have heard of 
Fallujah, Ramadi was the key terrain. That battalion was given 
more up-armored Humvees than any other, by a factor of two, 
because of the nature of the fight there.
    The fight there, that was written about in that New York 
Times article, was over a year ago.
    [The information referred to can be found in the Appendix 
on page 142.]
    General Mattis. We had 17 different forms of armor on the 
1st Marine Division vehicles at that time. And to set the 
tactical context for when that article starts out, the supply 
lines out of Kuwait had virtually been cut in the northern 
Babil area. Army troops, already completing a 12-month tour, 
were being turned around in Kuwait to return to Iraq and 
relieve us, so it could bring more assault battalions into the 
fight in Fallujah that had been blown up at the same time.
    Out on the Syrian border, Husaiba was under severe attack. 
We lost the company commander and four NCOs in the first hour 
of fighting. Ramadi was an open fight. The enemy got their back 
broken, and from that time until June, there was no fight left 
in the enemy in Ramadi.
    They have recovered since that time. They are an adaptive 
enemy.
    My point to you is that in the midst of what was going on, 
this company was standing strongly against the enemy. But when 
NCOs, months later, come in with concerns, the battalion 
commander took the last step he ever wanted to take; and I 
support him in what he decided to do. It had nothing to do 
with, since that time, his concerns. We addressed his concerns 
every day, as we did with every company commander, but that was 
war and the enemy surged against us.
    And you are aware of what happened in Fallujah. We went in, 
we stopped, we came back out at this time; and we had to ship 
troops hundreds of miles while a robust enemy assassination 
campaign killed the people in many places that had been working 
with us. It was not a good time and we eventually restored the 
situation, but there are costs not just in lives lost and 
wounded, but also costs in terms of people's identities and the 
challenges to our character.
    And I can explain more in private session.
    Mr. Weldon. I would appreciate a private session. I am not 
trying to second-guess what our military officers do. That is 
not my job, and I never want that to be my job. I have total 
confidence in our leadership.
    And maybe this report is wrong, that the leadership 
overseeing Captain Royer on May 31 of a year ago--which wasn't 
even a year ago, was about 11 months ago--made such very, very 
strong, positive comments about the leadership qualities of 
this Marine. I didn't write those comments. I don't know who 
did. You know who did. But somebody wrote--they weren't 
mediocre comments, but extremely strong comments about the work 
of this leader 11 months ago.
    And I understand the New York Times article was about 
issues that happened months ago, but the point is, something 
changed. Maybe it was the officer himself that changed, which 
is what you are saying, but you can understand why perhaps we 
would be somewhat suspect if that officer had also come out and 
publicly spoken out about the concerns of the troops under him, 
especially when that unit was the most heavily hit unit in 
terms of suffering casualties in theater.
    I look forward to a private session with you, and I would 
thank again the chairman and the deputy staff director for 
their outstanding work on this issue.
    The Chairman. And let me suggest, Mr. Weldon, that we will 
accommodate a private session, General, if we could. Anything 
else would disserve the officer in the process. We will do 
that.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, gentlemen for being here. I hope you all know 
how glad we are that you are here. I hope you also are feeling 
very, very uncomfortable about being here because there is a 
lot of dissatisfaction on this committee, the Congress and the 
American people. If it makes you feel any better, most of us 
are very uncomfortable with our position here.
    I have a different take on this than Mr. Weldon. I think we 
have also dropped the ball, that we have thought that, well, if 
we just have a funding level when someone says they are short 
of money and we pump money into it, that is good enough.
    That is not good enough. That is not the kind of oversight 
that Congress needs to be providing, the kind of attention. It 
should not take a young man standing up in Iraq at a town 
meeting that Secretary Rumsfeld is holding on December 8, 
making the comments that he does. That generates another focus 
on this kind of issue.
    So I think this is a very painful day for all of us, but 
the goal is the same, I think, to get better. I assume this is 
the report that Mr. Meehan was referring to, the GAO report 
that came out in April of this year.
    I ask unanimous consent that this could be inserted in the 
record in its entirety.
    The Chairman. Without objection.
    Dr. Snyder. And the title of it is, Actions Needed to 
Improve the Availability of Critical Items During Current and 
Future Operations. In just one of--their very brief, one-page 
summary, they say, ``While U.S. troops develop short-term 
solutions to manage item shortage during OIF, DOD and its 
services have begun to undertake systemic long-term changes to 
fix some supply problems identified. While GAO did not evaluate 
their potential for success, the majority of the changes are 
focused on distribution and not on the full gambit of systemic 
deficiencies that GAO identified.''
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Dr. Snyder. I think you have some pretty knowledgeable 
people saying you are not there yet; you are going to have 
other problems down the line. It not just the distribution 
system. I look at it as a pyramid. In Congress, I think we 
think the top of this pyramid is funding, that if we are giving 
you proper funding and have our laws stay out of your way for 
procurement, we are doing our job.
    But that is not accurate. If the problem down below is 
distribution systems and proper planning, information, all 
those kinds of things, if the stones in the pyramid below are 
inadequate, the pyramid crumbles and it doesn't matter what is 
on top.
    One of the problems that we have had on this committee on 
this issue--and in my view, a lot of issues--is getting 
information. We have been told multiple times, I don't know how 
many times, that the industrial capacity was at full capacity, 
maximum capacity, that everything was being done to produce 
armor that could be; and it turned out not to be accurate.
    I was really struck in the last week when the information 
in one of the newspapers came out about the death of Pat 
Tillman, and they make very strong statements that information 
was withheld from the American public that this was a 
fratricide incident until after this brave man's funeral. I 
don't think that does his family or the American people any 
favors.
    It is a problem that this Congress and the American people 
have had about getting information about these kinds of 
problems, and it is very, very frustrating. And we are now two 
years into this war and still having problems getting the 
information.
    I commend you for being here today. I hope and I know you 
are working very, very hard to solve this, but we all are not 
doing the kind of job--we are not having the kind of success 
that we would like to have; and in my view, that includes this 
committee also.
    One specific, detailed question, General Catto: You 
mentioned March. What March are you talking about?
    General Catto. March of 2004.
    Dr. Snyder. March of 2004, so a year ago. And would you 
repeat again what you said about the changing threat? Did I 
understand you to say at that time that IEDs were not 
considered the kind of threat you were dealing with?
    General Catto. That is correct. In a low level, we did not 
have a lot of incidents of IEDs at that time frame, and they 
have increasingly become a bigger threat with more incidents, 
greater explosives, et cetera.
    Dr. Snyder. Are you saying they had been a threat and 
dropped off, or they have continued to escalate since that 
time?
    General Catto. They have continued to escalate since the 
time the Marine Corps went back into Iraq until the present 
time.
    Dr. Snyder. Mr. Reyes has made a lot of trips to Iraq, and 
Mr. Weldon and the chairman and others. I have made several 
trips, and prior to March, I was in Iraq; and in my office I 
have a picture of me sitting in a mess hall, talking to some 
troops. And there is a poster right behind us--this is a mess 
hall photo that says, ``Beware of IEDs.'' That was six months 
before. I am confused on this time frame.
    General Mattis. If I could take a stab at this, what we are 
getting here: The Marines came out of Iraq for a period. The 
first IEDs that hit us the summer before, we went through 5-1/2 
months of stability operation. We didn't lose one sailor or 
Marine killed. The IEDs were small, ineffective, and relatively 
easy to hunt down the people who were laying them.
    They adapted. Basically they made bigger IEDs and went to 
RF stuff.
    We came out of Iraq in October. The IED threat matured. We 
got the word we are going back in November. General Kelly, my 
assistant division commander, and I flew back into Iraq in 
November and December. General Catto joined us in December with 
modifications to armored kits, and we began the armoring.
    In March, when we came in, we were hit by a limited number 
of IEDs, you are right, but the Marine Corps was out of the 
theater, and the 82nd Airborne was turned over to us in March. 
We have a little gap.
    Just like politics, every war is local. They are all local. 
We didn't see the maturation. We picked up from 82nd Airborne's 
great turnover to us, what we were coming back for; that is 
what we were armoring our vehicles for.
    Dr. Snyder. My time is up, but one of the issues that has 
been talked about, we have this turnover. I guess you are 
saying there was not adequate communication between the units 
that you were replacing, that somehow our sharing of 
intelligence when we have that kind of transition on these 
rotations----
    General Mattis. Quite the opposite. The 82nd Airborne 
warned us about what we were going into.
    We got the word in November we were going back in. The 
ships were still at sea bringing our gear home. They arrived in 
December. General Catto was at my headquarters with armored 
solutions that we began producing in January. We were going as 
fast as we could, and it was thanks to the 82nd Airborne's very 
keen attention and getting us that information, we knew what we 
were getting back into over there, sir.
    Dr. Snyder. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. I would direct the 
gentlemen to look at the time line and the actions taken by the 
staff team that the committee has put into action. I don't know 
if he has taken a look at that, but they have worked steadily.
    We have compressed schedules. We have driven reprogramming. 
We have met with union leadership and business leadership to 
reopen mills and to keep them operating at full capacity. So 
our team--I want our members to know that our team has been out 
there. And if they look at the key points where we compressed 
the schedules on the 7,000 kits in April of 2004, how we have 
driven the reprogramming on IEDs, I want our members to know 
that our staff team, that has been dedicated to this, has been 
active.
    Look at the road map that we have provided there for you.
    Dr. Snyder. Mr. Chairman, may I respond?
    The Chairman. I certainly would like to have the gentleman 
respond, but I heard the gentleman say that there is more to 
this than just simply funding money. And the committee has been 
doing more than providing money.
    Dr. Snyder. It is also a bigger issue than just this armor. 
The GAO report talks about problems with batteries, tires, 
vehicles, body armor, meals ready-to-eat, vehicle generators.
    I appreciate what you all have done and what the committee 
staff has done on this specific issue and what members do in 
terms of bringing this to the attention of the American people, 
but there are problems out there that we will continue to have 
problems addressing; and it is going to bite us again. I mean, 
that is what GAO is predicting.
    Well, thank you.
    The Chairman. That is why we are having this hearing and 
that is why we had four classified hearings on the force 
protection situation, to see what we can do from this point, 
how we can move forward and how we can accelerate the programs 
we have initiated.
    The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I would 
like to ask General Votel about the training our soldiers 
receive in improvised explosive devices before they are 
deployed over there.
    As I understand it today, our soldiers are not receiving a 
lot of training here in the United States, but more likely 
receive their training in IEDs when they deploy, immediately 
before they deploy to overseas.
    In your opinion, General, how great is the need to 
establish a training center, an IED training center, for our 
soldiers to experience IED environments before they are 
deployed overseas?
    General Votel. Thank you, sir. I think it is very important 
that we provide a high-quality experience for our soldiers and 
our Marines and everyone who is deploying, so they have the 
opportunity to practice and train in the environment in which 
they are going to fight.
    My observation is, I think we are well on our way to doing 
that with the resources that we already have at the National 
Training Center out in California, at the Joint Readiness 
Training Center in Louisiana and, on the Army side, the 
Combined Arms Training Center in Hunfeld, Germany. All of those 
locations for Army forces are being used to train units to be 
there. And we talk directly with the commanders and the 
operations officers that run those training areas to ensure 
that they have the latest information and that we are 
replicating the environment as closely as we can.
    Mr. Gibbons. What kind of physical environment is best 
suited for an IED training center? What do you need? Is it an 
area where you can utilize technology for defeat of IEDs as 
well as the experience of detecting and disarming IEDs? What 
kind of environment do you need and do we have that environment 
in these centers that you are talking about?
    General Votel. Yes, sir, I do. At the training center in 
California, it is an environment that is uniquely suited to 
what we are doing. I know that historically has been a place 
where we have trained a lot of our large, armored mobile forces 
on the Army side, but they have undergone a fairly remarkable 
transformation to build up villages and to replicate some of 
the urban environment that exists in Iraq. And so what we have 
tried to do is provide this combination of open terrain and 
urban terrain that we do see in Iraq.
    One of the things we are seeing is, we have made very good 
use of Yuma Proving Ground, Yuma, of course, being an Army 
facility. Also it is home to the Joint Experimentation range 
complex that has been put together with OSD money, and we made 
an additional investment to more closely replicate not just the 
physical environment--that is, roads, buildings--but also some 
of the background signatures, cell phone nets, other 
atmospherics that are necessary for us to go in and test the 
equipment, or the particular solutions we are looking at, and 
test it against an environment that we can closely replicate to 
what we see in Iraq.
    There is a combination of training areas, like we have at 
the NTC, that are very suitable; and there are test facilities 
out in Yuma, Arizona, that are very suitable to what we are 
doing. And there are things going on in other places.
    In Louisiana, at the Joint Readiness Training Center, the 
terrain is a little bit different than it might be Iraq or 
Afghanistan. Nonetheless, we are able to replicate many of the 
situations very successfully there.
    Both of the training centers have made huge investments in 
trying to provide HUMINT roles who actually replicate the 
people on the ground. So we are doing a good job of trying to 
replicate that and close the gap between what units experience 
in training and what they are going to experience when they get 
into theater.
    Mr. Gibbons. Are there any restrictions that you are 
running into, or obstructions that you are running into, with 
regard to the utilization of electronic countermeasures for 
IEDs that influence the training in any of these areas?
    General Votel. Yes, sir, there are some FCC regulations. We 
are working through the Spectrum Management office in the 
Pentagon to help us with that. We have been successful in 
working through some of those to get some access to frequencies 
that we can use to prove to soldiers. Of course, confidence in 
these systems is paramount in making sure that they are used 
properly and we have soldiers set up. So we have had some 
success in doing that and we are continuing to do that.
    One of the other things we are doing is, we are working in 
conjunction with the rapid equipping force. We have gone out 
and purchased a number of training boxes, if you will, that 
replicate the current family of Warlock systems, and we have 
bought a fairly large number of those, about 500 of each of 
those. Those are in the process of being produced. We think we 
will have the first deliveries here in about three weeks, and 
we will be sending these out to the training sites so they will 
have, in numbers, these training devices that can be used and 
can replicate the capabilities in a training environment.
    Mr. Gibbons. Thank you, General. And I hope during the 
course of all this that you will let us know what we can do to 
assist you in providing the training needs that will help our 
soldiers, sailors and airmen deal with these IEDs in a very 
forward-looking, forward-leaning fashion.
    The Chairman. I thank the gentleman.
    The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I would like to thank 
the witnesses for their testimony this morning and acknowledge 
the fact that no one has cared more or worked harder about 
protecting these young men and women than you have and the 
people you represent. We appreciate your efforts.
    I also want to say that it is clear to me that the efforts 
of Chairman Hunter and Mr. Taylor and Mr. Skelton and Mr. 
Simmons, a lot of members of this committee, have made a 
difference, and I express my appreciation to them as well.
    I am hearing really two stories or two parts of one story 
here. The first is the story as to what happened after about 
November of 2003, when we heard that it was going to become a 
top priority to get more armor into the field. And that story 
has had fits and starts and it has told us a lot about the 
labyrinth of the military bureaucracy in dealing with the 
private sector. There have been successes and failures, and I 
think the hearing properly focuses on how to make the successes 
greater.
    I am interested in the first part of the story, which is 
how we got to a point, before November of 2003, where we were 
so poorly prepared. It is my understanding, General Sorenson, 
in your written testimony, that we deployed 235 up-armored 
Humvees during the initial phase of combat; and our present 
goal, if I am not mistaken, is 10,345.
    That is a colossal difference, one for which you are not 
responsible. It is your job to fill the order. But I am 
heartsick about the inaccuracy and inadequacy of the orders 
that were placed with you.
    You were quoted in an article in the Philadelphia Enquirer 
talking about the beginning of the insurgencies and saying that 
no one, no one, predicted in the insurgency a potential to use 
these IEDs so widely. When did you first get asked to ramp up 
production of the up-armored vehicles and by whom?
    General Sorenson. Sir, thank you for the question.
    I arrived at the Pentagon about October of 2003, shortly 
after the AUSA convention. And at that time, I was beginning to 
get briefings with respect to what was going on in theater and 
the fact that we were beginning to see incidents of IEDs and we 
were looking at what were potential ways to respond to that.
    At the same point in time, we went back and began to look 
at what was in the laboratories, testing communities, at the 
time ARL was putting together some door kits that you could add 
on to a Humvee.
    But going back to your other question about the 1114, this 
vehicle in terms of what the basis of issue was only for 
reconnaissance soldiers and MPs who were going to be conducting 
military operations: Subsequent to that, we have found, because 
of the IEDs and the stability operations and the fact that we 
had never anticipated, if you will, this type of a threat, we 
had to go back and go ahead to begin to armor.
    I will go back and make one point. When we put together a 
kit in response to Bosnia, we built the kit for the Humvee that 
essentially had a lot of body armor underneath, but not so much 
to the side. As we began to look at the threat in terms of what 
we were encountering in Iraq, we found that the threat wasn't 
to the bottom, but was to the side because the IED explosives 
were coming from the side.
    Mr. Andrews. At some point there is a sea change. We go 
from having 200 and some of these armored vehicles to rushing 
to get ourselves over 10,000. Frankly, the track record in the 
months at the end of calendar 2003 is not bad. You have ramped 
up 8,000-and-something right now. But I am less interested in 
the industrial production than I am the paradigm shift in 
people's thinking. Who was it that came to you and said, you 
know, we need a lot more of these things in a hurry; and when 
did that happen?
    General Sorenson. Sir, I would have to go back and create--
we have some time lines and time charts, and I can respond to 
that for the record.
    [The information referred to can be found in the Appendix 
beginning on page 158.]
    Mr. Andrews. I would appreciate your doing that.
    Let me ask you a related question. I know you cannot and 
should not disclose sensitive intelligence. I am not asking you 
to do that, but who is advising you how many of these things we 
are going to need a year from now and what is the basis of 
their advice?
    General Sorenson. Sir, I think, again, if you look at the 
data we have provided here, we have begun to fund for in excess 
of the requirement. And right now, we are postured to do that 
with the kits we currently have in production as well as the 
up-armored Humvee.
    At this point, Training and Doctrine Command (TRADOC) has 
been working this particular issue, looking at lessons learned, 
looking at what the future operations of the Army would be, 
looking at what the future armored requirements are going to 
be. In the June time frame, they are to report back to 
headquarters with respect to what they think the potential 
armored solutions.
    Mr. Andrews. I know the committee would be interested in 
hearing what that recommendation is.
    I just close with this point: One of the reasons that I 
think our military is so successful is that it is your training 
and your orientation to anticipate the worst and prepare for 
it, and then if anything short of that happens, we are home 
free. And I am just dismayed, dismayed, that planners above 
your pay grade did not follow that practice in this case and 
seemingly assumed the best, received the worst, and we are here 
in this predicament as a result of it today.
    Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman, I think this has been a 
very valuable hearing in a long series of hearings in this 
particular subject. Let me first start by making a comment.
    General Mattis, I think you have an extremely clear and 
accurate view, so stated somewhere on the West Coast not long 
ago about our objective in this whole process, and that is to 
destroy the enemy. And I want to compliment you on your clear 
and concise view and also your willingness to articulate that.
    Along the same line, you also made a comment--I think it is 
valuable for the committee to seize on the day you spoke about 
taking over for the 82nd. And I suspect that was General 
Swannack that you replaced. The sequence of events that 
occurred and the rate at which, or the nature by which, the 
battle reshaped itself with the passage of time, I think is 
very important.
    There have been statements made that we all care about--
Weldon, Andrews, acquisition of armor, installation, very 
important. But there are a lot of facts, and you really touched 
on something in there that I don't think we really grasped 
before, the evolution of what has happened here; and I think we 
need to think about that before going forward.
    And my good friend, Dr. Snyder, I appreciate his 
participation, and he is a faithful member, but I take 
exception to his characterization, as the chairman did, about 
our awareness and the aggressive way that the committee and the 
military have pursued the issue of armor and IED jammers--the 
four classified hearings, very important, and we continue to do 
that.
    I remember Mr. Simmons on my right and others have visited 
sites and encouraged numerous, various manufacturers and others 
to get on the ball and get this material. The Philadelphia 
Enquirer article, I was shocked and disappointed.
    There is a long history here of what happened. We could 
have done a lot better job. We don't need to dwell on that. 
What we do need to dwell on is the acquisition process. We 
would love to measure responses with a stopwatch. Typically, 
when the Pentagon gets involved, it becomes a calendar. But an 
acquisition, you are talking about carbon dating to find out 
what is going on.
    I think part of what we talk about coming out of here today 
is the acquisition process. This committee has very, very 
strongly supported our industrial defense base in this country. 
We have not received similar support from some folks in the 
Pentagon and some folks in the other body--I guess we can call 
them the Senate here.
    Our industrial defense base is vitally important. When we 
call on them, and if you look at the reports here today, you 
find training of people in Pennsylvania and Ohio, having them 
and the personnel ready to go 24 hours a day, 7 days a week.
    I hope, General Votel and General Sorenson, that is a part 
of our lessons learned as we go forward today, because there 
are some vital lessons that we can carry forward that will put 
us in a position to respond in the future to the always- and 
ever-changing battlefield.
    Now for a question, General Votel and General Sorenson. As 
we look at the whole issue of armoring, whether we begin with 
an armored vehicle or add on later, a part of our forward-
looking consists of new materials that can be used that are 
lighter and even more effective. My understanding is that there 
are some ceramic and glass materials, laminating structures, 
that could improve and strengthen efficiency.
    Are we using that as a part to respond to all the issues we 
have talked about with armor?
    General Sorenson. Let me answer that question, and the 
answer is absolutely ``yes.'' to date, even in our armoring 
strategy and armoring efforts to date, we have had about 60 
vendors provide technical solutions for armoring, everything 
from steel to composites and more elaborate capabilities. Of 
those, we have tested over 300 solutions. As we go into the 
future, as I was describing before, the intent is to get to 
some composites, to some steel, basically a standard common 
application that we can put on many of our vehicles in order to 
reduce the logistics requirements, as well as provide a better 
surge capability.
    If we can get the same ballistic glass, or the same latch 
or the same door to go on more of our vehicles, we could better 
respond with respect to more vendors with improved solutions. 
And the intent at this point in time is to look at--in many 
cases, to look at our science and technology base.
    Mr. Hayes. One more question, if I may. Are you looking at 
glass ceramics and glass laminates as future armor decisions? 
Are you familiar with those?
    General Sorenson. I am familiar with those, and as I 
mentioned before, I think we are looking at those in our 
science and technology base at the present time, yes.
    Mr. Hayes. Thank you, gentlemen, for your service.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Let me begin by thanking you generals for being 
here. I believe each of you is a combat veteran from this war, 
and I thank you for your service in doing that.
    I would like to echo the remarks that my friend from 
Arkansas said. I am not particularly pleased, and I am 
certainly displeased with what has happened. I don't think our 
Nation has anywhere near shown the commitment that our young 
men and women in the field deserve.
    I think it started with sending troops off to war and 
saying only the front line troops need the best body armor. If 
you recall, the Guardsmen and Reservists did not have it and 
people needlessly died. And I would remind this committee that 
despite all of the money we have thrown at the problem--we have 
thrown a lot of money at the problem.
    The day after that Tennessee Guardsman questioned Secretary 
Rumsfeld, I went to Rock Island and there were a dozen people 
in white coats telling me why they couldn't get the job done, 
while three blue collar workers were working on a Friday 
afternoon. Now, tell me that is the national commitment to 
solve the problem.
    With the jammers, I mean, let us face it, the game that 
keeps getting played is, we are fulfilling the requirement. 
Requirement is artificially low; requirement isn't every 
vehicle. Everybody in this room knows the only reason that the 
number of jammers is classified is because they don't want the 
American people to know how few are protected.
    I appreciate General Votel's efforts, and I appreciate what 
the guys are doing at Indian Head. People are working on it. 
But we, as a Nation, have been so incredibly inconsistent on 
this war.
    George Bush says he is a wartime President. Well, doggone 
it, if he can find the time to go out and pitch Social 
Security, he can find the time to make these programs happen 
because kids are needlessly dying. And I suspect that half the 
kids in Iraq needlessly died because of lack of armor, body 
armor, and lack of jammers.
    I think the next thing we need to address--and we do all 
get ready to serve on programs and--I know I do; we are not 
addressing the need to change the shape of the vehicles. 
Pressure detonated mines are now causing a lot of injuries over 
there.
    Bottom line is, almost all the vehicles we have over there 
have flat bottoms. I am a boater. I understand boats probably 
better than a lot of folks. A flat-bottom boat hits a wave, it 
bounces up. A V-bottom boat hits the same wave, it slices 
through it. That explosion going off underneath the vehicle is 
a wave. And until we start changing the shape of our vehicles, 
we can have all the armor, but if that vehicle gets thrown 10, 
20 yards, the people in it get severely injured.
    I don't hear much talk about changing that. And, again, 
does that have to be the fourth mistake we make? Why don't we 
start addressing it today? And the last thing, why is it that a 
Nation that is at war can't turn to these factories and say, 
make it, because the truth of the matter is, this body is 
afraid to declare war on the insurgents in Iraq. If we had 
declared war as a body, then our Nation would be in a position 
to call the steel mills, to call the ballistic glass folks and 
call American manufacturing, what is left of it, and say, Make 
the things our troops need.
    Gentlemen, I realize you have been the pinatas de jour. I 
appreciate your service, but before we start pointing the 
finger at them, every member of this committee ought to look in 
the mirror as to whether or not we are making the commitment as 
a Nation. We can find the time to cut taxes for Paris Hilton. 
We can find the time to pass a $1.5 trillion prescription drug 
benefit, but somehow we haven't found the time to take care of 
the troops.
    Getting to the question of V-bottom vehicles, gentlemen, 
what kind of progress is being made toward that? And again do 
we have to wait until we field 20,000 flat-bottom Humvees with 
armor before we finally decide it is time to move on to 
something. Again, I don't care who makes it as long as it is 
made in this country, but do a better job of protecting the 
kids in the field.
    General Votel. I will address a couple of things that we 
are doing with respect to the shape of vehicles.
    One of the areas which we deal with on the IED task force 
is the functional capability for our engineering units and 
others to go out and perform route clearance. Clearly, keeping 
the lines of communication, the roads, the systems that we rely 
on for operations, for our logistics is vitally important.
    What we have done is, we have gone out and brought into the 
theater vehicles like the Buffalo, which comes with a specific 
V-shaped hull design and provides the type of protection that 
is afforded by that design. So that is in service with our 
engineering units, who are primarily doing route clearance 
operations for us right now. And the response we are getting 
from them is overwhelmingly positive.
    One of the things we have recently done, really taking a 
cue from the Marine Corps, is procuring a vehicle we call the 
Cougar. This is designed as a joint EOD, explosive ordinance 
disposal, force vehicle, and it does have a V-shaped hull. It 
is produced in South Carolina. The Marine Corps moved out on 
that, and we watched that closely and saw the advantage of that 
right away in making sure our forces--most of those who are 
responding to these types of situations with IEDs and have, in 
combination with Army supplemental money and money that we have 
taken out of the Iraqi Freedom Fund, fully funded the expedited 
production of those. We will see some coming into theater as 
early as August.
    Mr. Taylor. What is your goal on that?
    General Votel. We are working on 122--our focus is on EOD 
teams that are in the theater of operations, Iraq, Afghanistan, 
the Horn of Africa, and that is how we have addressed it 
through the IED task force because that is what our focus is. 
We clearly recognize there are ramifications for the long-term 
force, and so we are working with the institutional part of the 
Army to make sure that we are programming for these in the long 
term.
    General Sorenson. If I may add to that, right now I believe 
you are aware of the fact in the data that was provided here, 
we have 395 armored security vehicles which essentially have a 
V-shaped hull. In the supplemental, we have put a requirement 
in there to buy an additional 824, bringing it up to almost 
over 1,100.
    To date, the amount we are trying to satisfy is about 872, 
and we will intend to do that by the fiscal year 2006 time 
frame.
    Mr. Taylor. Gentlemen, what is the target date that you can 
assure this committee that before troops rotate to Iraq, they 
will have trained with jammers here in the States? And the 
reason I say this, right now I have got close to 4,000 
Mississippians over there. They never saw a jammer until they 
arrived in Iraq, never trained with one in the States and were 
told they were trained with them in Kuwait. That never 
happened; the first time they saw it was in Iraq. And many of 
the jammers they received did not have the software in it.
    That is water under the bridge. I regret that happened, but 
there will be other units rotating into theater. What is the 
game plan so that there are enough jammers that they can train 
in the United States, since we are losing half of our 
casualties to IEDs, and that they will be proficient at this 
before they get to the theater?
    General Votel. Sir, I will address that. As we last talked 
here, three, four weeks, we have gone back to the rapid 
equipment force and we have made an immediate purchase here of 
500 of each of the types of jammers, training devices, if you 
will, of each of the major Warlock systems that we have fielded 
in the theater. That is under contract and we think we will 
have the first systems here in about three, four weeks. We 
think production will be completed in about 16 weeks.
    Our goal is to basically take those devices and equally 
break them between the major training sites where forces are 
undergoing training so that, as they go to the mobilization 
sites and as they go through their rehearsal exercises at the 
combat training centers, they will have systems in number to 
train with.
    We are moving training sets down into Kuwait so that as 
they go through some of the training that takes place there, 
the refinement training, others will be able to reinforce that 
and do so with real devices.
    Mr. Taylor. The troops that are rotating in now are trained 
with jammers prior to going into theater? The rotations in 
January and May?
    General Votel. I can't speak necessarily for the Marine 
Corps rotation. For the Army rotation, for the most part, I 
think that is pretty much complete now. They have got in some 
amount of training back here and they get training from the 
Explosives Hazards Awareness team and from folks off of our 
task force. They come through Kuwait. That is what this 
rotation has got.
    General Mattis. For the Marines and sailors going in, part 
of them, whether they be aviation Marines or combat service 
supporter infantry, all of them go through training at March 
Air Force Base where we train them in urban terrain. We are 
building a center at Twenty-nine Palms.
    Right now we have to split the training between March Air 
Force Base and Twenty-nine Palms. Twenty-nine Palms is the only 
place we have the waiver in order to actually use the improved 
counter-IED equipment. And so they all get it and have been 
getting it for several months. I would have to check on when it 
started, but all of them in country now have training on the 
gear they use.
    Mr. Taylor. Thank you, gentlemen, for your service to our 
country.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    And I want to remind the gentleman and the rest of the 
committee that we will vote momentarily on this supplemental, 
which has in it the dollars that we are going to use to 
proliferate some new technology into theater. And we are not 
going to proliferate it in the old way, that is, we are going 
to surge production, using lots of companies; it is not going 
to be a long, slow acquisition trail. And we are going to move 
it in very, very quickly; and it is being done under our new 
license that directs getting the contract under way within 15 
days.
    But we look forward to working with you, General Votel, on 
that program.
    The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. You can sense a 
certain frustration among the members of the committee.
    My colleague, the gentleman from Mississippi, expressed his 
concern that we couldn't find the time and the money to defend 
our troops. I disagree with that. I think this committee has 
shown that it is willing to spend the time in briefings and 
hearings, in visits to bases and stations and plants around the 
country and, of course, to our troops in theater. And certainly 
we have shown a willingness to spend money, and we are going to 
spend some more today to protect our troops.
    There has been some discussion today about what went wrong, 
what failed. Well, clearly when we do acquisition for the 
Pentagon, we have a system that is, as my colleague said, 
sometimes carbon dated in identifying requirements and planning 
and programming and budgeting to make sure that we are buying 
the best equipment, the right equipment for our troops, and 
getting it fielded on time; and I think we would have to agree 
that somehow that system let us down here. We didn't properly 
plan, program, budget, execute to get our troops the equipment 
that they needed in the form of armored vehicles, which were 
never designed to be armored in the first place. But we didn't 
foresee that need and we didn't get that equipment and 
appropriate devices to counter the IED threat. So that is where 
we are today.
    We have been scrambling on this committee, and I know you 
have, to make up for what is clearly a failure in that system, 
to get the equipment that our Marines and soldiers need on the 
ground. And this committee, under this chairman, has taken 
extraordinary steps to give you the latitude, to give the 
Secretary the latitude to get things done quickly, to bypass 
the carbon-dating process and get at least to a count of the 
process, if not the stopwatch, which we would like to see. And 
yet we continue to be frustrated.
    And we are counting the numbers and the percentages, and is 
it the right requirement? And what we want to do is make sure 
that our soldiers and Marines have got what it takes to keep 
them as safe as we can keep soldiers and Marines engaged in 
combat.
    So the question is, what more can we do to get either 
regulations out of the way, to get you money faster? What more 
can we do to kick this thing where it needs to be kicked and 
move us down the road faster?
    Now, we are always going to be chasing--General Mattis very 
eloquently described the situation we have in combat. We are 
dealing with an adaptive enemy, so our requirements are 
changing right now in real time while we are sitting here. And 
that archaic, decades-long, established system of identifying 
those requirements and validating them and then programming 
them is not responsive enough.
    I guess I will give up on my speech and just ask the 
question again. Would anybody like to step up to it? What more 
can we do to move this thing so that we can acquire things in 
the same responsive way that you insist that your solders and 
Marines do in the field?
    General Catto. Congressman Kline, one thing that would be 
very helpful to us: As we talk about looking at what can we do 
for the future, let's take a second and talk about 
survivability in vehicles. We are at about the 98 percent point 
in what we can do to make vehicles better. You can't put any 
more armor on these things. We are breaking the springs; the 
suspensions can't--the enemy continues to put bigger 
explosives, et cetera. We are just at the peak of what we can 
do.
    We need to look at vehicle design from the tires up. It has 
to be for survivability where you have a combination of 
deployability in terms of--if you look at the Cougar, that 
thing weighs 36,000 pounds; it is tough to hurt, but let me 
tell you fellows, it is very hard to get it off the ship. So 
there is a trade there.
    We have to look at things like ceramics, which you talked 
about. The problem with the ceramics is, if you hit a ceramic 
today, it will work for the first blast and then it shatters. 
Well, if you are in a daisy-chain IED, you are fine the first 
time; the second one kills you. Metal doesn't do that, but 
metal is heavy and--you understand the problem, it is physics.
    We need help in the science and technology regime to get us 
materials that are light and very, very strong so when General 
Sorenson's guys and my guys put A-kits on vehicles, we don't 
weigh them down so they can't move. I mean, there is a balance 
between what can we do for the weight, what can we do for 
mobility, and how are we going to deploy them.
    In this case, in my opinion, it is a science and technology 
issue to help us with the kinds of composites and blast-
protective material that will allow us--to give us this kind of 
protection on vehicles and still be able to move. I mean, that 
goes all the way to things like our SAPI plates. You put a 
small arms protective insert in an outer tactical vest that 
weighs 4.5 pounds, one in the front, one in the back, well, 
pretty soon our Marines and soldiers are wearing 60 pounds of 
gear between Kevlar helmets, their SAPI plates, et cetera. How 
do we make that helmet more protective? We can't make it any 
heavier.
    We are really at the point now where it is a science and 
technology effort, where we have to get the materials that give 
us the same form and function, but that are lighter.
    And so I think, to answer your question, you need to put 
moneys in the science and technology regime that are pointed 
exactly to those kinds of things, and they have to be funded 
long enough for us to make the research and get the 
breakthrough.
    General Sorenson. Sir, if I may just add on, not to spend 
time talking about the science and technology, I agree with 
General Catto, those particular efforts would certainly help us 
to do what we need to do for force protection and 
survivability.
    But to address your question about the process, just a 
couple thoughts: As an acquisition officer for a number of 
years here, this particular dilemma we have encountered, now we 
have, in the department, had to go back through and recalibrate 
the way we go through our process. Our vice chief's staff, as 
we began this particular conflict, began having weekly meetings 
which were basically what he called the Army Strategic Planning 
Board, where requirements would be vetted, we would look 
forward in terms of what was necessary for planning purposes, 
and begin to make changes immediately to what we were procuring 
or how we had to make changes so we could get that through the 
acquisition process.
    The dilemma becomes, in many cases, just like what we 
talked about; and I think the chairman has spoken about what 
the committee has done.
    I will go back to October 2003, where we began to identify 
a need to have armor packages, we had to go through a lengthy 
process in order to get the reprogrammings done, and you take 
money from one pot and you put it in another one. I will tell 
you, that process is very laborious; it takes an enormous 
amount of time in trying to work through all the records as we 
go through the Army staff to 0SD staff, to OMB, to Congress, 
and back down the chain.
    If there could be some flexibility put in with respect to 
providing, if you will, an amount of money to do what was 
necessary--you know, By the way, you go do that, spend it on 
what you need and report back on what you spent--that would 
give an enormous amount of flexibility to the acquisition 
process, as opposed to what it is right now where we have our 
budgets and we have our lines, and any time we want to change 
things we have to go through this entire pyramid up here, and 
down the pyramid down the right-hand side.
    So, again, providing some flexibility to accounts, line 
accounts, that basically say, You have $100 million, you have 
$200 million, you use this as you see necessary; and by the 
way, report back to us how that money is being spent. I think 
that would go a long way to improving our ability to react to 
necessary changes on an immediate basis.
    Mr. Kline. Thank you, General. That is precisely the 
direction I was looking at.
    I hope, Mr. Chairman, we can follow up on that as a 
committee.
    The Chairman. If the gentleman will yield----
    Mr. Kline. I yield back.
    The Chairman. If the gentleman will yield on that.
    General, I would ask you to look at the new law that this 
committee did just write for you, and it says that if you are 
taking casualties in combat, the Secretary can waive every law 
on the books of the United States of America up to $100 
million, the figure you just suggested.
    This first--this jammer is going to be the first model 
under this particular provision. Secretary Rumsfeld has signed 
that; he has certified it as an urgent need. We are going to 
knock that thing out, and we are going to surge it into 
production, and we are going to surge it into the field. We got 
back an 8-month profile from the Navy on the production. We 
said, That doesn't work, we want to do it really within 30 to 
60 days.
    So my recommendation is, if we can get that to you while 
you are here today, that is a license that you need to use. And 
you need to get one guy to sign off on that, and that is 
SECDEF. You go to SECDEF and tell him you have a combat 
requirement, and I don't think he is going to turn you down.
    So I think you have got precisely the instrument that you 
need. So why don't you take a look at that and get back with 
us, let us know what you think about it.
    General Sorenson. Will do, Mr. Chairman.
    The Chairman. The gentlelady from San Diego, Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for your service and for being 
here.
    I want to follow up for a second the comments just made 
about science and technology. As I recall, looking at budgets a 
while ago, we saw that those accounts actually have been cut; 
and I wonder, have you had a chance to look at those? Do you 
think that we are doing what is required and necessary in order 
to bring about the results that you just mentioned?
    General Catto. I was the Vice Chief of Naval Research at 
ONR in a former life, before I became an acquisition guy. And 
what I would tell you is the S&T budgets have declined to some 
extent. I think there is a reason for that, because the S&T 
community in many respects hasn't been responsive to what the 
guys need.
    It is very hard to get DARPA and ONR to give you help on 
specific technologies and transition into the operational 
forces. And I think that is the frustration that I personally 
have, having worked as the Commanding General of the 
warfighting lab and the Vice Chief of Naval Research, and then 
moved into acquisition. To get the science and technology guys 
to work on the kinds of technologies that soldiers and Marines 
need so that we field them during our lifetimes is very 
difficult.
    Ms. Davis of California. Well, Mr. Chairman, I would 
suggest that perhaps that is something that we need to push on. 
And I think that we have tried to change those numbers from 
time to time, at least in the relatively short time I have been 
on the committee, and I don't know that we have all had that 
support. So I would take that under advisement, and I think 
that is something that we need to take a look at.
    I wanted to follow up with my colleague, Congressman 
Snyder, for a second on the GAO report. Have you all read that? 
Have you had a chance to review that?
    General Sorenson. Ma'am, I have just gotten a copy of that. 
I have not completely reviewed it. I looked it over very 
briefly last night. I believe in some cases some of the 
information, obviously, just like any other report, is dated. 
However, there are some particular nuggets there which probably 
are worthwhile to go off and pursue, but I couldn't give you a 
complete answer at this point in time.
    Ms. Davis of California. I wonder if you just want to 
comment on the systemic problems that were identified. And do 
you think that the problems are systemic? If you had had an 
opportunity to look at the issues, how--perhaps if you haven't 
read it, it would be difficult--but how would you have written 
that differently? What particularly would you have identified 
as the problems?
    And we have had a chance to discuss them here, but I am 
just wondering if you could respond to the report itself.
    General Sorenson. Again, I would have to come back to you 
with a better response because, like I said, I have just 
received a copy of the report and I have not gone through it in 
detail.
    I guess if you are asking for a personal opinion on what we 
saw prior to this with respect to our efforts to armor our 
vehicles and things like that, clearly there were some systemic 
issues with respect to working with industry, defining exactly 
what the requirement was going to be, how we can begin to move 
it, accelerate it and so forth.
    I think in many cases, too, as we begin to work on these 
kits, you will find that the kits were designed by a host of 
different manufacturers--we had Stewart and Stevenson, we had 
Radian, we had Armor Holdings--and in many cases they went off 
and did the system engineering work to build that kit.
    But I will tell you in many cases what we would get back 
from industry, specifically the steel industry, is that the 
plates were cut. But in one case they were cut 1 foot--or 
excuse me, 3 feet; next one was 3.2 feet, next one was 3.3. So 
in many cases we were really not working well together to 
accommodate and put out packages that, quite frankly, could be 
used on all of the vehicles.
    It goes back to what I said earlier. We are having all the 
consortiums get together, identify some common parts such that 
we can pursue an aggressive strategy to accelerate, as well as 
have a surge capability, to accommodate need for armoring 
different vehicles, but armoring and giving it force protection 
with common components, as opposed to everybody has got their 
unique little thing.
    Ms. Davis of California. I appreciate that. I mean, it 
seems like common sense that you would be working to coordinate 
in that regard, and yet sometimes it is difficult to walk in 
one another's shoes and try and get that out there. I 
appreciate that.
    I know, in having met with a number of Marines who have 
come back from the field, they certainty speak highly of the 
plates; they know that those definitely saved their lives. But 
they also responded that they were being asked to wear so much 
armor that they couldn't even move any longer. I think that 
that is a real problem, and when you speak of the technology 
and the materials that we use, that is also one to address.
    Mr. Chairman, I see that my time is up. I wanted to just 
ask one question, which is a really more sensitive question. I 
certainly wouldn't want it to be taken that any of the deaths 
are any different from one another; these are all men and women 
who have given their lives, who are very courageous. But I 
wonder whether the families are notified whether--in fact, how, 
the way in which they were killed--whether it was necessarily 
in combat in an up-armored vehicle, IEDs, and whether you think 
that the public as a whole should have more information.
    Should the Congress have more information? Should we be 
told? Should we have some way of knowing the numbers and how 
those deaths correspond to the way in which individuals were 
killed? Would that spur on any more activity than we already 
have seen?
    I know everyone is working at full capacity here, but I am 
just wondering, is that something that we should know more 
about?
    General Mattis. Ma'am, if I could address that. The family 
needs to know everything that we know; that is the bottom line. 
Now, in the chaos of the battlefield, there are sometimes 
legitimate reasons why we don't know the specific thing that 
happened at that moment, there is always going to be 
information gaps, especially to a family that is getting the 
worst possible news.
    With that said, at the time we release information in Iraq, 
you will notice it is very cursory, and the reason is to keep 
from reporting back to the enemy, at least in the Al Anbar 
Province--I am speaking for the Marines here--what we call 
battle damage assessment. We don't want them to know that the 
mortar rounds that they fired into Ramadi last night killed a 
soldier, sailor or Marine. We will simply say we lost one of 
our lads in the Al Anbar Province.We don't want to give the 
enemy the feedback.
    But once it comes down to the family, nothing is kept back. 
There are times when there is just legitimate friction and fog 
of war that causes problems, but no other restraints 
whatsoever, ma'am.
    Ms. Davis of California. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady and her--I think her 
point is an extremely good one with respect to the analysis of 
what is happening, for example, to platforms with the IED 
threat and with the other threats that affect them. Because 
right now we are in the stages of developing a new generation 
of systems, and there is nothing more instructive, probably, to 
that process than this real war that is going on right now.
    So we have talked--intelligent lady, we have talked about 
that with the service leadership and operational leadership, 
and my understanding is that there is fulsome reporting or 
analysis going on with respect to the actual attacks and the 
damage resulting from that. That is something that we need to 
concentrate on.
    And also, to the gentlelady, one thing we have done: I 
think there is probably nothing more meaningful to a family 
than to have the commander of the people--of a soldier, sailor, 
airman, Marine who is killed--talking to the parents. And we 
have managed to get that done in several places where they 
don't have much information, at least initially.
    But I think General Mattis makes a good point about not 
announcing to the world what happened in these recent 
activities.
    The gentleman from Pennsylvania, Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    First, I want to thank all of you for your service to this 
Nation, especially in the times we are living in and what is 
going on in the world. And I also appreciate what General 
Mattis said to us early on, reminding us that combat is an 
ever-changing environment; and I think some of us, some of the 
people across this country and here in this committee forget 
that fact.
    And it is not a new phenomenon, it is something that has 
been going on for thousands and thousands of years, as long as 
wars have been fought, the enemy figures out a way to overcome 
your defenses; and we have got to change, so what is likely 
today to defend our troops tomorrow may be ineffective.
    Could you please, any one of you--I am not sure who to 
direct it to--clarify for me the problems with up-armor. Was it 
a bigger problem in supplying of steel; or was the problem the 
capacity to get the vehicles up-armored the workforce, the 
number of people we had out there?
    And the second part of that question is, were there any 
problems with the weight of the steel on the vehicles, whether 
it is a Humvee or it is the Iron Horse? Could you comment on 
that?
    General Sorenson. Yes, Congressman, thank you.
    Initially we did have some issues, as was addressed 
earlier, at the beginning here, with respect to acquiring the 
amount of steel that was necessary. I believe most of those 
particular issues have now been overcome, and we are now to the 
point where at the beginning we had maybe one steel 
manufacturer that was essentially providing capability, we are 
now up to three. Where we had one, if you will, government 
organizations more or less working on armoring, we are now 
eight and nine depots with arsenals. And where we had but a 
handful of contractors, three or four, there are now clearly a 
dozen-and-a-half, essentially providing capability here to our 
forces.
    When we first began to embark upon the add-on armor kits 
specifically for the Humvees, it was a very difficult issue 
because many of the vehicles that we have that were committed 
to the war are of the variety that we call the A0, the initial 
deliveries of, if you will, Humvees that were delivered to the 
Army and the Marine Corps years and years ago. And we are 
talking about the 1980's.
    We had to go through a very deliberate process whereby we 
analyzed how much armor could we put on this vehicle, and what 
was the optimum amount in order to give force protection, but 
yet not basically load down the vehicle so that it couldn't 
move. And I will tell you, in some of the first instances when 
we put one of the kits on a vehicle and ran it up there at the 
Aberdeen Test Proving Grounds, the vehicle came to a basic stop 
and it shattered the front shaft.
    So we had some difficult challenges we had to go through, 
the interim process trying to find out how much weight could we 
put on this vehicle, and essentially what will that armor 
package look at--and oh, by the way, where would we optimize 
that armor?
    We went back to theater, the 8,400 that the chairman spoke 
of before, when that first requirement came in, and went 
through a detailed analysis of what does that 8,400 break down 
to in types of vehicle, so we could begin to identify what 
armor package could go on what particular vehicle.
    Subsequent to that, as we have talked about now in terms of 
the 1151 that we are about to go produce, that will be able to 
accommodate the armor package that essentially is the same as 
an 1114.
    So we have learned a lot by going through this, but 
initially, you are right, we had some significant issues with 
respect to how much armor can we put on some of those, if you 
will, Humvees, the older Humvees that we had in theater.
    Mr. Shuster. In light of your answer, then, my next 
question is, because we had trouble getting the steel and the 
fact that we don't have a significant steelmaking capacity in 
this country anymore, and that the weight was a problem, why 
aren't we aggressively pursuing the use of composites?
    And I know you mentioned earlier that we are looking at it, 
but from what I can find out and gather, we are not putting a 
whole lot of money into it. And it just seems to me that 
composites--again, from what I understand, you may have 
different information--composites work. I mean, Boeing is 
building a new airplane, jetliner, that is going to fly 35,000 
feet up in the air and deliver a couple hundred passengers 
around the world. And from what I understand, it is in testing 
composites work.
    Why aren't we aggressively--and when I say 
``aggressively,'' why aren't we spending money getting 
composites into the field and lightening the load on the truck? 
And not having to depend on foreign countries to get the 
composites, we can manufacture them here.
    General Sorenson. Sir, we are actually working through 
that. In fact, there are several companies, several composite 
armor makers that are basically providing that capability. We 
have talked a lot with respect to the soldiers giving us 
feedback in terms of how the vehicles are being weighed down, 
the issues respective to the frame; and as a result of that, we 
have gone back and really pursued many of the composite makers.
    Specifically, as I mentioned before, we have had about--
over 300 solutions shot up at Aberdeen. A lot of those were 
composites, and in some cases, the composites didn't give 
enough protection, so we had to take the composite and 
essentially put in, if you will, a small piece of armor or 
aluminum or something else to give it the capability of force 
protection that we are looking for.
    Mr. Shuster. Decreasing the load on the truck, though, by 
using a combination----
    General Sorenson. Yes, but in some cases, there were 
tradeoffs. From our test results, our initial test results--
again, I go back to early 2004, late 2003; the results at that 
point in time with respect to composites were not to the 
standard that we needed in terms of force protection.
    I think subsequent to that they have increased 
substantially, and I believe the Marines have used some of the 
composites in their latter designs that have shown us that, as 
we go forward, even in our 1151 forecast, we are going to have 
some potential composite makers for armor protection.
    Mr. Shuster. I haven't heard you talk much about it today, 
the composites. We are spending a lot of money on steel. So are 
we going to aggressively go after composites to be put on the 
ones that are successful?
    General Sorenson. Yes.
    Mr. Shuster. I would like to--I see my time is up. If you 
could give me some kind of report on what you are doing, 
because as I said, what I understand is that it is--the money 
is not being spent to go after the composites, and they have a 
great benefit us to.
    And I don't know the cost, but I--can you just quickly 
comment on the cost?
    General Sorenson. The costs in some cases have been a 
little bit more expensive than, obviously, the steel, but there 
are some tradeoffs there. And I can certainly give you some 
more feedback in terms of the composite companies that we have 
worked with, and what we are doing in that regard.
    [The information referred to can be found in the Appendix 
beginning on page 158.]
    Mr. Shuster. I would appreciate if you would give me that. 
Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman for an excellent line 
of questioning.
    The gentleman from South Carolina, Mr. Spratt.
    Mr. Spratt. Thank you, Mr. Chairman. And thank you all for 
your testimony and for your service to our country.
    About a month before the war began, General Shinseki was in 
my office for a briefing on another subject. When we finished, 
I took the opportunity to ask him his assessment of the postwar 
planning, because I had great concerns about what could happen; 
and he gave me a surprising answer. He said, Sir, I haven't 
been briefed.
    Now here is the Chief of Staff for the Army whose main 
responsibility is to take and hold real estate, who had a 
major--had a primary role in this invasion, this war; and also 
had experience--he did--running a multilateral force dealing 
with a partially Muslim population, trying to pacify and 
stabilize Bosnia and Kosovo. This is a week before he testified 
that several hundred thousand troops would be necessary.
    He told me, I haven't been briefed yet, a month before the 
war was to begin.
    Were there deficiencies, blind spots? I won't ask you to 
pass on General Shinseki's situation, but were there 
deficiencies and blind spots in our planning process that 
caused us not to foresee what could have been foreseen in this 
situation?
    I will put that question to anyone.
    General Mattis. Sir, certainly with hindsight we can spot 
blind spots. We adapt quickly--probably the U.S. Military 
adapts more quickly than any other on earth. But we are 
certainly subject to a certain degree of criticism about the 
post--what you would call the decisive combat, defeating the 
enemy's main forces.
    Mr. Spratt. Would it be accurate to say we were unprepared, 
surprised, by what has developed with respect to this 
insurgency, in particular, the way that they have been able to 
deploy these improvised weapons?
    General Mattis. Sir, I wouldn't go that far. The U.S. Navy 
went triumphant. It crossed the Pacific coast in World War II 
and got to Okinawa, found vehicle-borne IEDs in the form of 
Kamikazes. I think we need to be--I need to be slow to 
characterize as failure an enemy adaptation.
    Our Army, our Marines, our Navy, our Air Force are 
employable worldwide. There are numerous situations where these 
heavily armed vehicles would have bogged us down and we would 
not have made the speed we might have needed; or in certain 
areas, the enemy simply wouldn't have responded this way.
    I think in hindsight you can always find areas you could 
have planned better because all planning is anticipatory 
decision-making. And thanks to our professional military 
education, which must remain strong, I think we have adapted 
well.
    But there were certain aspects to this fight that were 
probably missed. I can tell you that, as a division commander, 
I have clear guidance from my MEF commander, then General 
Hagee, now our commandant, which anticipated the need to get 
the electricity turned on to work with Iraqi security forces; 
and as I was pulled out of Baghdad and Tikrit, I had a very 
clear plan from actually a year before that General Hagee had 
given to me--now General Conway commanding me--that I knew what 
to do.
    Mr. Spratt. Let me ask you this: I was there, I think it 
was October of 2003, and the units were beginning to experience 
the problems that we are having with IEDs, and also with a lack 
of the latest version of Kevlar vests, body armor, particularly 
for the units that had been rear echelon units that were now in 
places like Baghdad.
    And one young MP from an MP--a National Guard MP company in 
the Carolinas, told me, Sir, I can account for at least three 
people who have been killed in my unit, my company, because 
they didn't have the latest version with the ceramic plates of 
the Kevlar vest.
    I came back, and I knew some folks at DuPont, so I called 
them into my office to see what we could do to facilitate the 
production of these things; and I found out that they weren't 
the prime, that somebody else was the prime contractor for us, 
and that they then had to let out subcontracts to at least two 
or three subcontractors and vendors, and the process was all 
very onerous and time consuming. And there were through FIT 
rates that each one of them--each supplier in the chain was 
subject to.
    I didn't get the sense then that there was any Herculean 
effort to override all of these onerous military procurement 
processes and get the deal done, get the Kevlar vests out in 
the field.
    Looking back, would you think that we should have taken 
more extraordinary efforts to break through these bottlenecks 
and speed up the process to deliver these things that the 
troops clearly needed?
    General Mattis. Sir, I will defer to the acquisition folks 
on that, but let me make one point.
    I personally did not wear one in OIF-1, and the reason I 
didn't wear it was the speed. They are very heavy, as you know, 
and anything you can do to lighten one of your Marines, they 
can move faster, more agile.
    Going back to OIF-2, once I made certain that every sailor 
and Marine I had had one--or had two, one in front, one in 
back, then I took one, too. The situation had changed.
    Mr. Spratt. This applied before we got that level of 
supply, did it not?
    General Mattis. I think we were okay. When we actually 
decided we needed them, sir, I was able to give one to every 
sailor and Marine in my division.
    I can only defer to the acquisition people as far as the 
time line. I don't know how they did it, but they did it.
    General Catto. Congressman Spratt, I think some of your 
criticisms are valid in terms of the process in some of the 
convoluted contracting, et cetera, that went on earlier in the 
conflict.
    But the principal problem with SAPI plates in particular, 
though, is the raw material for them. There just hasn't been 
enough of the raw material available worldwide for that 
particular technology.
    I have been to Brazil looking for raw material for those 
particular things. It is just an issue of there just wasn't 
enough around for the demand, and I think that my counterparts 
in the Army had the same problems.
    General Sorenson. That is correct. We had the same issue 
with respect to--it was essentially the raw material. We had 
several producers that could take the raw material and produce 
the plates, but it was getting that flow, getting that pipeline 
to the point that we could actually develop enough plates to 
get to theater.
    Mr. Spratt. Thank you for your testimony. My time is up. I 
appreciate it.
    The Chairman. I thank the gentleman.
    The gentleman from Michigan, Mr. Schwarz.
    Dr. Schwarz. Thank you, Mr. Chairman.
    Am I correct in assuming that the Humvees that are being 
manufactured now by AM General are Level one, the ones that are 
coming off the line are Level one Humvees that have the armor 
protection, the integrated armor against small arms; is that 
correct?
    General Sorenson. No, sir, not exactly.
    What AM General----
    Dr. Schwarz. Okay.
    General Sorenson. Let me just clarify. AM General produces 
the frame. They send that frame to Armor Holdings. Armor 
Holdings then puts on, if you will, the armor package that we 
now call the 1114.
    So it is a joint--what AM General does, though, is make 
sure that that frame can accommodate that armor package.
    Dr. Schwarz. What I am getting at here is capacity. UAW 
Local 5 at AM General indicates that they are working 4 days a 
week a 10-hour shift, one day a week an 8-hour shift, one 
Saturday a month, 28 chassis a week, and they could double that 
production if asked to do so.
    Is there some comment that you would like to make on that? 
Is there a reason why if the upgraded Humvees aren't out 
there--either the armor maybe doesn't have the capacity, so it 
wouldn't make any sense to have AM General make any more--or, 
in fact, could we go up, as UAW Local 5 says--good folks out in 
the Midwest, who would be very happy to work the extra hours 
and produce twice as many of these chassis a week.
    Do any of you gentlemen have a comment on that?
    General Sorenson. Sir, I will take that question. Thank 
you.
    As we just talked about with respect to SAPI plates, the 
flow of material to make it an armor essentially comes out of 
AM General. At this point in time they are not the critical 
hurdle to get through. It is to get the armor package put on, 
which essentially is Armor Holdings.
    Now, as we go into our 1151 production, the intent at some 
point in time is to take advantage of the surge capability that 
AM General has, that have more than one producer, if you will, 
of the B kit, the armor package that we can put on these 
vehicles such that we can surge the capability, use the 
additional excess assets that are there at AM General, and 
begin to, if you will, deliver systems much quicker than we are 
today.
    Dr. Schwarz. So at the conclusion--I will go very rapidly, 
Mr. Chairman.
    I can come to the conclusion that, if you could, you would 
use the extra capacity AM General quite candidly says they 
have, and the holdup is with the armorer?
    General Sorenson. That is correct, yes, sir.
    Dr. Schwarz. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your testimony today and for 
your service to the country.
    I would like to follow up on two things: One, IEDs; and the 
second will focus on composite materials that one of my 
colleagues was actually talking about earlier.
    But since we are talking so much about IEDs this morning, I 
wanted to also ask if you can give us an update on tracking 
down how the insurgents, our enemies, are being resupplied, 
whether this material is hidden in country and they are just 
obtaining it that way and building IEDs; or if they are being 
resupplied from outside the country.
    Obviously, we didn't have much success finding weapons of 
mass destruction, so I am not exactly optimistic that we are 
going to also be able to track down the source of where the 
IEDs are coming from. But if you can give us an update on how 
robust that effort is and what the status is, I think that 
would be helpful.
    The other thing that I would like to ask about this 
morning, with respect to composite material, clearly our focus 
has to be protecting the soldier. It is our concern, it is your 
primary concern; and I understand that, I hear that from you 
today.
    The other thing that we need to be focused on as a 
secondary concern is extending and protecting the service life 
of the equipment, as well. And I am very disturbed about 
reports I have heard about how quickly you are running material 
into the ground and not doing enough to resupply. We need 
obviously to be concerned about the next battle, the next 
conflict that could arise anywhere in the world, whether it is 
the Middle East or other areas; and our equipment is being 
severely degraded far faster than what we had originally 
intended.
    So I would like an update, first of all, on how our 
equipment is doing. And then, as a follow-up to that, I have 
been--I have been concerned about more rapidly developing 
composite material.
    We have--I have two requests in right now, the defense 
authorization bill, for lightweight armor for vehicles, $5 
million would go for the armored composite cab program, working 
with a company in Rhode Island called TPI. And as we know, 
composites can provide both alternative and standard armor for 
tactical vehicles while extending service life.
    The other request is $5 million for lightweight materials 
for armored vehicles for Brown University, which has worked 
with the Army's Cardek program to research materials that could 
be the basis for the next-generation armor.
    So my question is--and I do agree we touched on this this 
morning, so I want to give you an opportunity to expand on it, 
but what effect the add-on armor, either a Level two or Level 
three, is having on the service life of the vehicles? And can 
you expand upon the efforts that you are taking to decrease the 
weight of the armor, or the vehicles, to ensure sufficient 
protection without further degradation.
    If you can expand on those, I know the committee would 
consider it helpful.
    General Votel. Mr. Congressman, if I could, I will address 
your first question that dealt with the enemy and how we are 
working with that.
    I think a full and complete answer really needs to be done 
outside the confines of this current setting here, and we would 
be more than happy to bring somebody off the IED task force to 
come to your office and share that information with you, if you 
would like to have them, and give you a full laydown.
    In general, however, I think what we see is, IEDs are not a 
tactic that is limited to insurgents in Iraq or Afghanistan; 
they are clearly one of the preferred methods which worldwide 
insurgents use to make contact with the people whom they are 
trying to inflict.
    And so we do see movement of techniques, of technology, of 
people and, certainly, materials that cross international 
borders. And we see some of that in Iraq and Afghanistan.
    I would be more than happy to bring a team member across 
and talk with you in specific detail about that.
    I am very happy to report, however, that one of the things 
that we have done is really starting to take efforts to get 
after bomb-makers and those that would try to plant bombs 
against our forces or others. And we have a very robust system 
in place in theater now, that has been in place now for several 
months, and we are seeing some progress.
    Again, I would offer to you that at the same time, we could 
come across and update you on that particular effort. We are 
very proud of it, we think we are making some progress in that 
particular area.
    Mr. Langevin. I would welcome that update on both of those, 
that would be helpful.
    General Sorenson. Sir, with respect to your other question 
about the impact on the vehicles, I can certainly assure you 
that we are doing everything we can to take care of the 
vehicles that have these armor packages. We, in some cases, 
modified the springs that we have deployed to theater and so 
forth.
    But clearly the vehicles that we have put these armor 
packages on are the older vehicles, and we have had a number of 
problems; we have seen how they react to having that armor, how 
the soldiers are having to react to driving them, in some cases 
we have seen some pictures where they almost looks like a low 
rider, if you will, by the time you took the armor and put the 
package on.
    But I can give you--if you will, take a question for the 
record and give you a more robust response with respect to our 
recap and reset efforts in terms of what we are doing to take 
these vehicles and put them back into a condition that they can 
be reused in the future.
    [The information referred to can be found in the Appendix 
beginning on page 157.]
    General Catto. As a side statement, we are using our 
vehicles at seven to eight times the normal rate right now. It 
is going to be very helpful in the supplemental, with the 
support that we have gotten from this body, to replace those 
vehicles. So I think that you will find, in the upcoming years 
we are going to be okay, but it is not inexpensive. And we are 
grateful for the help that you have given us in terms of 
replacing the equipment that the Marine Corps has lost.
    But if you go back to your composite question for a minute, 
it is going to be a great technology when it is mature. The 
problem we have is that it is just not ready for prime time. 
And that is why I say we need to have greater emphasis placed 
upon producing a composite that can take the place of armor, 
that is durable, that is lightweight, that is effective, and 
that becomes a very, very valuable commodity.
    Mr. Langevin. Well, gentlemen, thank you. And this 
committee, I know, looks forward to working with you to make 
sure that we are replacing equipment at the rate at which we 
need to; and at the same time, developing the next generation 
of composite materials to make the vehicles safer and the life 
of the vehicles last longer.
    So thank you for your testimony.
    And thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    I think we have just enough time for Mr. Simmons to slip in 
before we both have one minute left for this vote. We have got 
about six minutes right now, I think we may be able to make it.
    So Rob, if you want to give it a shot.
    Mr. Simmons. I thank you, Mr. Chairman, and I thank the 
gentlemen.
    Almost 30 years ago in Vietnam I was called out to witness 
a scene in Fujian Province where I was stationed, which was a 
quarter-ton Jeep that had gone over a mine placed in the 
highway. And the Jeep was totally destroyed, the four soldiers 
in it were all killed; and in fact, the largest piece of the 
Jeep that I could find was a piece of the engine block, which 
you could virtually lift with your hand.
    And the message from that experience, to me at least, was 
that a determined enemy, if they want to blow you up, they are 
going to blow you up, and no amount of armor, sandbags, 
protective vests, bottom plates--whether flat or V-based--are 
going to save your life. You are just in the wrong place at the 
wrong time, you are going to die.
    And I understand that. But what I don't understand is what 
has happened in this situation over the last several years. I 
went to Iraq in October of 2003. I returned back and submitted 
a four-page trip report to the Secretary of Defense. He gave it 
to the Secretary of the Army. And on 12 November of 2003 I 
received a four-page letter back from the Secretary of the Army 
saying that the movement of up-armor Humvees into the Central 
Command area of operations is a top priority, quote, ``a top 
priority.''
    In January of 2004, I wrote him again after three of my 
constituents had been seriously injured, one nearly fatally, in 
an unarmored Humvee. And I said, What can I do as a member of 
the House Armed Services Committee to work with you to solve 
this problem of getting armor plate and up-armored Humvees into 
the theater ASAP, solve the problem ASAP, as soon as possible. 
I referred back to his reference that this was a top priority.
    It was a full 13 months later that the Secretary of the 
Army established the Armor Task Force, and we still don't have 
coverage on all our vehicles.
    As I read your armor summary, there are almost--there are 
over 5,000 that are not armored because they are not leaving 
the FOBs. Well, we hope they are not, but you know, in a 
battlefield situation, who knows? Whether you have to hop in 
that baby and hum out of there, you just don't know.
    So there are 5,000 still in theater. We have heard it is a 
problem of the manufacturers, but when I went out to visit 
O'Gara-Hess, we discovered they had tremendous capacity. We 
hear it is a problem with, I don't know, the manufacturer and 
the UAW, but they have capacity.
    And what I see in here, what I see is the statement that 
the priority of fielding UAHs to units in Iraq is determined by 
the commander of the U.S. Forces. And what I see in your 
testimony is installation of the kits shall commence should 
commanders request that these vehicles be equipped with this 
capability based on their own individual threat analysis.
    So I think that the truth of the matter lies in the 
commander's setting of priorities, and the truth of the matter 
lies in what my colleague referred to as the glacial process of 
deploying equipment into the field. And that bothers me, and I 
suspect it bothers you.
    It bothers me that this rolled homogenous alloy is 
produced, I believe, by only one company in America, Coleville, 
Pennsylvania. It bothers me that our industrial base is so thin 
that we can't produce this ourselves, we have to buy from the 
Canadians and the Swedes. And I wonder if this committee needs 
to legislate or have oversight hearings on our industrial base 
when it comes to these issues, and maybe on our capacity to 
produce new materials that are lightweight.
    The Chairman. Let me tell my good colleague, who has worked 
this issue with a lot of effort, that we are going to work on 
that issue, but right now you and I had better work on the 
issue of getting to the floor. We have got about a minute and a 
half left, and they may give us an extra minute or so. We will 
come back.
    And gentlemen, we have got some sandwiches and the best 
Diet Coke you can buy available, if you want to grab a bite 
before we come back.
    We will come back to finish the hearing. But, Rob, we had 
better take off right now and come on back; and you will get 
the rest of your question.
    Mr. Simmons. Thank you, Mr. Chairman.
    [Recess.]
    The Chairman. Mr. Simmons gets to finish his questioning. 
But we will go to the gentleman from El Paso who has taken 11 
trips now to Afghanistan and Iraq. Is it 11, Mr. Reyes?
    Mr. Reyes. Five to Iraq and ten to Afghanistan, but we are 
overdue and we need to go again.
    The Chairman. He is very concerned about these issues and I 
thank the gentleman and thank him for being with us on our last 
tour in Fallujah. Gentleman from El Paso, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And as always, thank 
you, gentlemen, for being here. I know this morning you have, I 
guess, endured some of the frustration by members of this 
committee; but you know, just to put it in context, when we 
were going--when we were in the build-up going into Iraq, we 
had hearing after hearing here, and a number of us would ask 
the questions that we were being asked for reassurance by the 
parents and spouses of our men and women in uniform. And we 
were always assured there won't be a single military person in 
theater that doesn't have all the equipment and hasn't been 
properly trained. And that is why you are hearing a lot of the 
frustration here, and we know that there are unexpected 
challenges that we face in combat. And we know, at least those 
of us who have had that kind of experience know, that you have 
got to improvise; and sometimes it is a situation that is so 
fluid that it evolves so fast that you are just not able to 
respond any other way except under emergency situations. And I 
think that has to be one of the lessons learned.
    And before I ask you a question, I wanted to see, Mr. 
Chairman, is it--and on the way to vote, I asked you if we were 
possibly going to have a hearing on this GAO report that we 
have referenced here this morning that I don't think any of the 
witnesses have read completely yet. But the reason I think it 
is a good idea, Mr. Chairman, for instance, on page 53, it 
states: To improve visibility over the adequacy of the Army's 
war reserve, something we have been very concerned about, 
Congress may wish to consider requiring the Secretary of 
Defense to provide information that discloses the risks 
associated with not fully funding the Army war reserve. And 
there have been a number of concerns about that.
    One bigger concern that I personally have is a statement in 
here by GAO that says while DOD agreed with the intent of three 
recommendations, it did not commit to any specific actions to 
address them. And therein lies the concerns that I have and I 
know a lot of my colleagues have about the things we have 
identified. So if we can have a hearing specifically relevant 
to the GAO report, I know I would be very appreciative.
    The Chairman. We are going to have another hearing on force 
protection. And what I recommend is why don't we make the GAO 
report and the issues that it raises a part of that, and we 
will give that to our witnesses to prepare responses and we 
will make it a part of our next hearing. And if the gentleman 
wants to put it into the record, we will be happy to do that.
    Mr. Reyes. I appreciate that, Mr. Chairman, because I know 
you have been--in fact, I have seen firsthand, on the many 
trips that we have taken, the concern that you have for giving 
the troops anything and everything that they need; whether we 
here officially, or as one individual, who gave us a list of 
things that they needed that you championed right away. I think 
that is our legitimate role as members of this committee.
    I was going to ask for whoever wants to take this, 
specifically in Afghanistan, all our vehicles are armored?
    General Sorenson. To address the question with respect to 
Afghanistan, the answer is in fact no, that is not exactly the 
case. There again----
    Mr. Reyes. Can you tell me the percentage? And the reason I 
am asking you this, General--and I know the Chairman has been 
there as well--in a recent trip to San Antonio, some of the 
soldiers that were recovering there made mention that their 
armored vehicles are way less--and this is something they get 
frustrated about, that they are kind of the forgotten war or 
forgotten front in this issue, because they complained about 
having to go out on these missions with vehicles that are not 
armored.
    And when I said well, from your viewpoint--and this may not 
be accurate, but I want to ask you this--but from your 
viewpoint--I am asking the soldiers--what is the percentage 
that you think is armored? And they were giving me guesses of 
20 to 30 percent. Is that in the ball park that we have 60, 70 
percent of the vehicles not armored in Afghanistan right now?
    General Sorenson. I am not sure that is exactly the right 
number. And rather than give you a number that I am not 
confident of, I would rather give it--if I could take that for 
the record and respond back to you.
    I will tell you that we have on a weekly basis, in fact 
every Saturday morning, we have discussions with theater, 
theater being both Iraq, Afghanistan. And we conduct a recount, 
if you will, of vehicles, exactly what is armored, what is not 
armored, any changes. We can provide that information to you, 
if you will.
    [The information referred to can be found in the Appendix 
beginning on page 157.]
    Mr. Reyes. I would appreciate that, because I am concerned 
that those that are fighting in Afghanistan somehow feel like 
they have been neglected by--certainly by us and in terms of 
the supplies as well.
    General Sorenson. I am not sure I would say that.
    Mr. Reyes. I am just telling what we are hearing, and that 
word was used.
    General Sorenson. I think in many cases, there are 
different conditions and different environments. And as a 
result, the commander on the ground there has defined a 
different requirement than if you were the commander in Iraq.
    Mr. Reyes. I appreciate that. Well, my time is out, can 
you----
    The Chairman. Mr. Reyes, you have been to theater over to 
11 times, you have earned more questions. I don't believe there 
are any votes for awhile.
    Mr. Reyes. I thank you, Mr. Chairman.
    One other concern that we have heard is that the 
predeployment training, before they deployed specifically to 
Iraq, the training that they get on Humvees that are designed 
to simulate what they would be driving in theater with all the 
armor and all, that is dramatically different. They are telling 
us they are much more sluggish, they react differently. They 
control way different than anything that they are training on 
here.
    My question is, first of all, you have got to be aware of 
that, number one. And number two, what are we doing to address 
that? And one of my colleagues was talking about perhaps there 
may be some way to modify the training vehicles to respond that 
way, whether it is loading them up with the equivalent in 
weight--I don't know how you would do that--but that certainly 
is something that the soldiers are concerned about because, 
regrettably, sometimes when they get in country, they don't 
have this ramp-up of time to get familiarized with the 
vehicles. They jump in, go out on a mission, and they get hit. 
And they don't have that time to get familiar with them. So 
that is very critical in terms of what we are hearing on that.
    General Sorenson. You are absolutely correct. I think to 
date, clearly the effort has been to try to move, as much as we 
can, the armored packages into theater. This has become an 
issue as late. It has been identified by a number of soldiers 
either returning, as well as soldiers deploying, and we are now 
identifying armored packages to be put on vehicles that can be 
used clearly here at home station. But even before they deploy, 
there is a training range there at a facility in Kuwait that 
they get some training on the vehicle to understand what the 
environment is, because the roads are different than what we 
have here, et cetera. So that actually is occurring.
    But we are trying to get more of that training here back at 
CONUS so the soldiers will get more familiar with having this 
extra armor on and what does that mean with respect to 
responding to turns, curves, speed, et cetera. And we are 
working that right now.
    General Mattis. Congressman, that is also the same for the 
Marines. We have numerous troops on their second and third tour 
in Iraq now. For example, we have 300 men in 3rd Battalion on 
their third tour in Iraq, so we are not losing the skills 
either for all of our prioritizing the gear going to Iraq first 
rather than to the training establishment.
    Mr. Reyes. The only follow-up question I would ask is, it 
is my understanding, because of limitations in Kuwait, not 
everyone is able to do that; is that correct?
    General Sorenson. I was going to say, sir, it is not to my 
understanding. That is correct.
    The Chairman. I thank the gentleman and thank him for his 
attention to this issue.
    And, Mr. Simmons, you were part-way through when we had to 
make that vote. Go right ahead.
    Mr. Simmons. Thanks, Mr. Chairman. Before we broke for the 
vote, I expressed my frustration and concerns about the use of 
the words ``top priority'' by the Secretary of the Army in 
response to my concerns back in October of 2003 on this issue. 
Top priority seems to me to be just what it says, top priority; 
and yet the schedule of implementation puzzles me, because it 
has been so slow and the reasons given for it has been so 
diverse.
    But let me go to my questions. First and foremost on the 
armor summary, it appears over 5,000 vehicles are currently 
unarmored. My question is when can we expect these vehicles to 
be up-armored; or, alternatively, are we being told that the 
commander in the field is saying that it is not important to 
up-armor these Humvees, these vehicles? That is point one.
    Point two, the issue of IEDs. Have we talked to the 
Israelis about IEDs? I have been to Israel and have seen what 
they do in their border areas. I have seen some of the 
equipment they deploy and use on a regular basis. They have 
been dealing with IEDs for dozens of years. They have been 
dealing with the kind of threat that we are facing in Iraq for 
many years. How productive have we been in learning from others 
who might be willing to cooperate with us on developing and 
deploying and getting equipment into the field as soon as 
possible?
    And then the final question is again, RHA, rolled 
homogenous alloy, one company I am aware of in this Continental 
United States that produces this in Coatesville, Pennsylvania. 
We have had to go to Canada and to Sweden. To what extent is 
the failure of our industrial base to provide material 
inhibiting our ability to protect our men and women in uniform 
in the field?
    General Catto. I would like to talk directly to your 
question about what we have done with the Israelis. We are 
exchanging technology with them. One of our key technology 
things is called OPAL. I won't address it anymore in an open 
forum, but it has been very successful in helping us identify 
suicide bombers or folks who are carrying concealed weapons.
    We have also done a program with them for specialized 
search dogs that sniff out explosives off leash. And they are 
trained to go hundreds of meters forward and they will point 
out an IED or unattended munition and alert the handlers. We 
had two instances in theater with those dogs, and successes for 
us. And they were trained with the Israeli help and we have 
instituted that into our search dogs. We are talking to the 
Israelis constantly, and there is an exchange of information.
    General Votel. Sir, I would just add with respect to the 
Israelis, through the offices of the IED Task Force, we have a 
well-established relationship with them and we have gone--they 
have been very open and forthcoming with us. We have brought 
groups of officers and NCOs, Americans and Israelis to exchange 
information. We have gone as far as to ask them for some help 
in areas which we may now think we may have some capability 
gaps, and they have been forthcoming in identifying things to 
us and offering things for us to test and look at. And we are 
doing some of that in the next couple of weeks here.
    General Mattis. When we took the First Marine Division back 
into Iraq, an Israeli-trained detective on the Los Angeles 
department was on my staff. The LAPD was helpful to the Marine 
division going back in as we got ready. This Israeli-trained 
IED expert on the LAPD staff conducted training for all of my 
men going back in as they rotated through their predeployment 
training. And he was with us for the first 45 or 60 days we 
were in country.
    General Sorenson. Just referring back to the armor summary, 
I draw your attention to the fact that right now in theater, we 
have close to 42,000 vehicles in theater. The requirement has 
been identified in terms of armoring vehicles somewhere in the 
neighborhood of 36,000. So in some cases, the basic difference 
there, the 5,000 are vehicles that the theater has identified 
to only occupy missions on a forward operating base. They are 
not to deploy outside the gate without an armored package. And 
in some cases, they are doing mail runs. But the determination 
has been not to put an armored package on these particular 
vehicles. So consequently, we probably won't.
    You see here in terms of funding, we are funded right now 
to basically armor over 37,000 vehicles. So we are going to be 
well in advance of what we are planning for with respect to 
theater requirements.
    Mr. Simmons. Thank you, Mr. Chairman.
    And if I could make a quick comment. I am concerned that 
5,000 vehicles have not been designated for some form of armor 
packaging, and my concern is very simple. It is all very fine 
for the commander in the field to say these vehicles will be 
operating within a base and a zone that does not create a 
current threat, but we do not know what tomorrow is going to 
bring. We do not know what tomorrow's requirements are going to 
be and 5,000 vehicles multiplied by three or four soldiers, any 
one of those could be an emergency situation out there in 
harm's way. And I would feel far more comfortable if I knew if 
they had some equipment on them.
    But I guess this is the commander's decision. I am not sure 
it is a decision I would make, but I guess what you are 
testifying is this is the commander's decision to keep 5,000 
vehicles in theater unarmored.
    General Sorenson. I am coming back to the fact that we have 
received from CFLCC a requirement document to basically armor 
36,000 vehicles. And we do know there are additional vehicles 
there, but at this point in time we do not have any plans to 
armor them, although we are adding additional armored packages 
that could be used, if required to armor some of those 
vehicles.
    The Chairman. General Sorenson, let me ask you a question 
on this. We are trading out level one for level two. And level 
three is being, as I understand, virtually traded out in a lot 
of areas. So you have got these--a door on a Humvee is simply a 
steel that is three feet by four feet and it can have a piano 
hinge where you pull the standard screws out of the hinges and 
put a piece of piano hinge on it in about 20 to 30 minutes, and 
put a three by four piece of high hard steel with 8-bolt holes 
cut in it, and you have got a new door. And in fact, retired 
Marine General Terry Paul did it in a record of about two 
hours, armored up a Humvee simply by lifting the hinges off the 
soft Humvee and putting the old ones on.
    The point being that you are getting rid of--as I take it, 
when these kits come in, they have everything including the 
doors. And the two solid doors on a Humvee, they are each three 
feet by four feet. So that is the big package of protection 
across the side of the Humvee.
    If you are taking the steel doors off--and I presume they 
are good steel, high hard steel--you could put those on, and 
those could be put on in theater on the soft Humvees, the 5,000 
or so that Mr. Simmons referred to, could they not? It seemed 
like it would be a pretty fast changeover because you can 
change the doors out in a few minutes?
    General Sorenson. Yes, Mr. Chairman. That probably could be 
done. There are only 3,000 of these Humvees that aren't 
armored. The Department is working with theater to try to bring 
some of these vehicles out of theater, the ones that are not 
armored, and bring them back to a reset, recap program so we 
can get the entire force reset with respect to what we are 
going to need in terms vehicles.
    The Chairman. I understand all that. If you have a Humvee 
sitting there in a forward base--and even a base like Balad 
where they take a few rounds of mortar or were taking a few 
mortar rounds every couple of days, and now again taking some 
casualties there, right. And if they are close to a building, 
they herd everybody inside, and if you're not, I presume you 
get in your vehicle. If you have got these doors, which 
represent a large part of the armor profile in some numbers 
now, because we have taken them off and you simply lift those 
hinges up and pull them out pretty easily, wouldn't that be 
something that commanders could do at these forward bases if 
they were so inclined, without prejudice to any program or any 
time schedule or anything else?
    General Sorenson. Mr. Chairman, you are absolutely right. 
And certainly we will convey that back as we work with theater, 
the possibility of doing that. But again, I think we are all 
working to get, like I said, some of these vehicles that are 
not armored out of Iraq, because in many cases the older 
vehicles have to come back to be reset. That is why we are 
trying to get back out of theater right now.
    The Chairman. This wouldn't delay for one split second any 
retrievable vehicles. It would be a matter of using something 
that you had that is available when people need it. So why 
don't we scrub that with our operational people and talk to the 
chiefs about that and see what they think about it? Looks like 
to me you are going to have stuff laying around as these kits 
come in and you discharge some of the old stuff.
    Let me see, the gentleman from Ohio, Mr. Ryan, has been 
waiting patiently.
    Mr. Ryan of Ohio. Thank you, Mr. Chairman.
    I appreciate everything you gentlemen have done for our 
country. This is a difficult endeavor for all of us and I 
appreciate everything all you guys do. One of the issues that 
struck me throughout the hearing is the research and 
development. I think it was--General, you had mentioned that as 
being an issue. And some of the numbers I have, I think we are 
spending between 26 and $30 million on research on armor R&D. 
And to me it seems like a pretty low number, given the other 
side of what happens when we don't do the research and don't 
get the kind of products that we need. So I think it is 
important for, obviously, this panel to state the importance of 
that and communicate the importance of that to us.
    I hope, Mr. Chairman, we can work in the future to try to 
get that budget up not only for the military research, but I 
think overall into the universities. And at Youngstown State 
where I represent, we have an advanced material science program 
that is just getting off the ground. One of the products they 
are developing is steel foam that maintains the same strength 
and character of steel, but made out of foam which is much 
lighter, which I think would achieve some of the goals that you 
would need in the military.
    So I think it is important for us to be committed. And the 
military research, quite frankly, is in many ways more 
effective than research we do at NIH or somewhere else, because 
it has this practical application in the field. So I want to 
work with you and share with you some information that I have, 
but I would love to participate in trying to help you increase 
the budget for that purpose.
    My main concern prior to the war, and which continues to be 
reaffirmed throughout these hearings, is that we weren't 
prepared for this kind of long-term struggle; and it is mind-
boggling to me to think that is the case. Given our 
relationship with the Israeli Government and our cooperative 
ventures that we have between their military and our military, 
was anyone asked before? Because it seems like these IEDs have 
been common in what has been going on in the Middle East for a 
long time. Were we not using that as some kind of model to 
prepare ourselves, not necessarily to the extent it was used in 
the Middle East, but it would obviously be used more in Iraq. 
Was that used as a model for us to say hey, here is what is 
happening with IEDs in this particular region, in this 
particular struggle in the West Bank and the Gaza strip, and we 
know that will be used here and we need to prepare for it 
accordingly? And maybe if that was used as a model, wouldn't 
the response be we need the armor and we need to be prepared 
for these IEDs, and we are not going off in the war until we 
find ourselves ready?
    General Votel. I am not sure I can answer your question as 
to whether we had studied that prior to the war. But what I can 
tell you is that since October of 2003 when I became involved 
with the Army IED task force, and now in my role with the joint 
IED task force, we have reached out to our international 
partners, the Israelis and others who have had experience in 
dealing with insurgencies where IEDs were either a major part 
of the enemy's tactic or one of the contributing techniques he 
has employed. I think we have done a good job of looking at 
what others are doing and how they have approached the problem 
from training, from an organization, from intelligence and from 
a technology standpoint in trying to bring some of those things 
forth.
    General Catto gave you the example of the use of off-leash 
search dogs. That is not anything peculiar to the Israelis. 
Other countries use it as well. I think that is one small 
example of how we have reached out. To the point, quite 
honestly, within the IED task force, right now one of my 
deputies is a U.K. Officer, and he is there to help bring the 
experience of their army in dealing with insurgent-type 
operations into our consideration and make sure that we are 
cooperating and coordinating as closely as we can in this 
particular fight.
    Mr. Ryan of Ohio. I guess my question isn't whether or not 
you are working with the U.K. Or working with the Israelis, but 
it was prior to the war. It seems like we were surprised that 
they would sit back and fight a guerilla war and use the IEDs 
the way they have. I would just think that there would have to 
be some preparation in the war-gaming, that one of the 
scenarios is they sit back and wait and fight a guerilla war. 
And I remember we were talking about it here, using IEDs in an 
urban setting.
    My time is up, but the point being is that I hope in future 
conflicts like this, we scrub this, as the Chairman would like 
to say, and make sure that we cover all the different angles 
here, because I think a lot of this could have been prevented. 
I don't think we necessarily needed to rush in as quickly as we 
did without covering all of our bases.
    Thank you very much. And I look forward to helping with the 
research and development aspect of it and look forward to 
working with all of you. So thank you for your contribution in 
coming before us today. Thank you, Mr. Chairman.
    The Chairman. The gentleman from North Carolina, Mr. Jones.
    Mr. Jones of North Carolina. Mr. Chairman, thank you very 
much. And first I would like to submit and ask unanimous 
consent to enter four written questions I submit and get 
written answers back, please.
    The Chairman. Without objection, any written questions you 
submit for the record here will request an answer.
    Mr. Jones of North Carolina. I am still waiting for those 
questions from Secretary Rumsfeld, sir, but I don't want to 
bring that up.
    The Chairman. We will try to deliver these in the same 
batch.
    Mr. Jones of North Carolina. Probably will get the same 
response, but I hope not.
    The written questions are for the United States Army and it 
does deal with Army issues. But I want to say to my friends, 
the Marine Corps, that I am not going to ask you a question, 
but I might when I finish this. But for three months, I have 
been watching an outstanding Marine who was charged with 
murder. His name is Lieutenant Ilario Pantano. I have had the 
opportunity to go down and meet with him. I have met with his 
lovely wife and have seen his beautiful boys. And I never met a 
person in my life that loves the Marine Corps--let me rephrase 
that. This man loves the Corps. No matter what has happened to 
him, he loves the Corps.
    Today I am pleased to report that a Marine corporal who was 
videotaped shooting and apparently injured an unarmed Iraqi in 
a Fallujah mosque last year will not face court martial, the 
Marine Corps announced. And if I mispronounce his name, I do 
apologize to him, Major General Richard Natonski. And I want to 
read what he said:
    ``Consistent with the established rules of engagement and 
the law of armed conflict, he will not be charged and move 
forward to a court martial.''
    Last week there was article 32 hearings down in Camp 
Lejeune. This was a witness for the prosecution, those who are 
prosecuting Lieutenant Pantano who has been being charged with 
two counts of premeditated murder. This is Navy medical 
corpsman George Gobles. And he was a witness to the 
prosecution, and his comments about Pantano, ``a damn good 
leader,'' he testified. ``I felt the safest with, you know, 
this platoon, because more than anything, because of Lieutenant 
Pantano and his leadership.''
    Also Major Brian Neal, the operations officer for Pantano's 
battalion, testified that Lieutenant Pantano was one of the 
finest second lieutenants he had ever known during his 17 years 
in the Corps. To me, that is one heck of a compliment. He 
recalled--Major Neal recalled the day of the shooting and I 
quote him: ``to me, it was a good day. We killed two obvious 
insurgents.''
    I don't know how in the world this thing has gotten where a 
man who loves the Corps, so talented, would probably--maybe not 
now--had made a career of the Marine Corps. A valuable person. 
The charges, Mr. Chairman and Ranking Member, came two-and-a-
half months after the shooting, when this marine did his job. 
He thought he was doing his job as he was trained. Two-and-a-
half months later, a sergeant that he had demoted from a 
leadership position to be the radio man, two-and-a-half months 
later, Mr. Chairman and Ranking Member, he decides this might 
have been a murder. So he tells a fellow marine, and then it 
works its way up.
    I truthfully do not know, and I pray to God that the 
hearing officer will recommend to General Huck that this not 
move forward, just like this corporal who was doing his job in 
the battlefield. And I agree with many of my colleagues on both 
sides of the aisle. I regret that we are in Iraq. I regret what 
is happening to our men and women in uniform. But God bless 
them, they are doing a great job.
    Many of you at that table, probably all of you have been in 
a battle. I haven't. But some of this stuff is common sense. 
You don't have to be in a battle to understand what is 
happening.
    Let me tell you one other thing. I hope that the base 
commander or whomever is in charge, I don't know if the 
prosecutor for the Marine Corps was one man or two, but in the 
courtroom when this man's life is at stake for doing his job 
for this Nation, they were joking and laughing to the point 
that they were told to apologize to Lieutenant Pantano's 
mother. And I know you gentlemen at the table are not 
responsible for any of this. And my frustration and my 
preaching is not at you, I promise you, but I don't know how we 
can ask our men and women, Army, Navy, Air Force, and Marines, 
to go into this type of situation with an unconventional-type 
enemy and no eye-witness to what Pantano did.
    Sergeant Coburn, the Corpsman, they said we didn't see it. 
This corporal, and I thank God he is not going to be court-
martialed, they videotaped it. And I hope and pray, Mr. 
Chairman and Ranking Member, that this Lieutenant Pantano is 
exonerated. And I have said it on the floor of the House, I 
pray to the good Lord that he and his family will be cleared.
    And this might be my question, and I will close, that I 
hope if he is exonerated and he chooses to stay in the Corps, 
which he loves so much, that he would have a future, just like 
I hope this corporal, if he decides to stay in--I just don't 
think, Mr. Chairman, we should be second-guessing any of our 
men and women in uniform when they are in the battlefield. They 
have an enemy in front of them, whether armed or unarmed. I 
don't think any of us sitting behind a desk, unless we have 
been in their shoes, need to be making decisions of such.
    I don't think it is fair for me to ask you, but I will ask 
if you have any comments, not so much about Pantano, but maybe 
tell me what does happen to a person like the corporal or like 
Lieutenant Pantano if they decide to stay in the Marine Corps? 
Do they have a future? Give me a yes or no. And I know I have 
taken Mr. Davis's time but I would like to know do they still 
have a future in the Corps?
    General Mattis. Congressman Jones, I respect everything you 
have said. The lieutenant, the corporal, they absolutely have a 
future. If they are found to be innocent, they are innocent and 
they will be treated as such. But what sets the U.S. military 
apart often from other militaries in the world is when we send 
them around the world, they represent what President Lincoln 
called the ``better angels of our country.'' we investigate 
every allegation against our troops. And as you can see from 
what you read this morning coming off the West Coast, what 
General Natonski has decided, there is no rush to judgment.
    In the case on the other coast, in the 2nd Division area, 
we have a case that was reported up through the chain. Now I 
realize the NCO, there may be issues I can't address, I don't 
know the specifics. But we are always reluctant to ignore the 
comments of an NCO in the Marine Corps, of a petty officer in 
the Navy. By conducting an investigation and conducting a 
thorough one--and an article 32, as you know, is like a 
civilian grand jury. He is not in front of a court martial yet. 
I am not saying he is in an enviable position, and I respect 
again what you are saying, but we owe it in the Naval service 
where we hold people accountable who are leaders, whether they 
are lieutenants, corporal or generals, that we look at the 
circumstances surrounding something like that. Right now, that 
is what is going on, and I have to defer to the investigation 
itself, sir.
    Mr. Jones of North Carolina. Chairman, if I could make one 
statement and then I will close. I appreciate your answer, and 
that I think is very encouraging, that if they are exonerated 
both with will have a future. That will not be held against 
them.
    I would like to talk about Sergeant Coburn. He was demoted 
from his leadership position. Everything I have read from the 
Jacksonville paper, the Wilmington Star--the Wilmington News--
and one thing that I do want to make clear for the record, 
Sergeant Coburn, being cross-examined by lawyer Gittins for 
Pantano and Marine Stackhouse, also attorney, he responded 50 
times by saying ``I don't know or I can't remember.''
    Again, I hope and pray that we give all the support that we 
talked about today as it relates to armor, and we remember that 
these men and women are human beings. And maybe if sometimes 
you don't have the luxury of a full second--you have been 
there, I haven't--it is a split-second decision. Let us give 
them the benefit of the doubt. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman and I thank him for his 
attention to this very important area.
    Gentleman from Kentucky, Mr. Davis.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman. Returning 
back to the original focus of the hearing, I would like to make 
some comments and then ask a specific technical question. I 
think if one views military history--and I will speak as a 
student of military history--our current military, Army Marine 
Corps, Navy and Air Force, especially our forces on the ground 
in Iraq, are the best trained, best armored and best protected 
force in the military history of the world. That is very clear 
to anybody who I think would really open the books and get 
beyond politically motivated comments.
    And I would like to take exception with a couple of my 
colleagues in the minority and some of the comments that they 
made earlier this morning from what I believe is a 
mischaracterization of the current situation by constantly 
resurrecting the events of past--of nearly two years ago, and 
now overcome by other events. And my suggestion would be all of 
us should be careful in our rhetoric, because the comments by 
some in this body, indeed though may seem well-intentioned to 
those members, do indeed have a contradictory effect in the 
culture to encourage and potentially embolden enemies who would 
not otherwise engage in destructive activities, and sends the 
wrong message, and thus potentially putting our service members 
in unnecessary danger and harm.
    More correctly, I think what we need to focus on and where 
we are focusing is to assure that the material management life 
cycle is collapsed, very similar to the competitive models of 
competitive American manufacturing in the automotive industry 
and high-technology industry, which can field a brand-new 
vehicle in a year in an environment that contains continuous 
improvement and adaptation to a fluid and changing marketplace, 
not unlike the fluid situations you have so well adapted to.
    And I make my comment from this perspective, as one who had 
delivered a technical paper at the Annual Mine Warfare 
Conference at the Naval Postgraduate School in 1996. I have to 
tell you, with nine years of perspective, I stand absolutely 
amazed at the great strides in adaptability of the Marine Corps 
and the Army on the ground.
    I was in Israel with Chairman Saxton comparing tools and 
techniques, procedures, tactics that were being used both by 
Israeli defense forces in dealing with similar tools. They did 
some things that were interesting and adaptive based on their 
unique situations.
    I have to say in the context of some of the remarks made by 
two minority members this morning, we in many areas are far in 
advance of where they are. And I think it is a commendation to 
the efforts of folks that have reacted well to this situation.
    That being said, I would like to move into the future and 
think strategically as we are moving into a more network-
centric and more adaptive expeditionary-type environment. 
General Sorenson, you made a comment that the future vision is 
to have vehicles that can be rapidly reconfigured for changing 
situations. For example, when we move from the conventional 
ground combat, the first phase of Operation Iraqi Freedom and 
then versus the second phase, where it became more 
unconventional, dealing with a counterinsurgency situation, we 
have taken immediate steps. But looking from a standpoint in 
the long term, does this vision include the ability to rapidly 
reconfigure--an area of personal interest to me--the heavy 
combat service support vehicles that tend to be the most 
vulnerable when they go into countries, the ``Red Ball 
Express'' they were called in World War II. If you comment what 
you are doing in that area, particularly looking down the road 
5, 10, 15 years.
    General Sorenson. Thank you for the question. And that is 
exactly what we are doing. Much similar to what we are doing 
with the Humvees, we are doing the same thing with the heavy 
trucks. As I mentioned, there is a consortium right now with 
all the heavy truck manufacturers, Freightliner, Oshkosh, 
International. They are getting together to assemble with 
respect to their particular vehicles where can we make some 
common applications of force protection capability, i.e., 
latches, doors, glass, et cetera, such that we can begin to 
find other vendors that can produce these and put these on 
different vehicles and make them all fit, so when we will have 
a surge capability, as opposed to every particular vehicle 
having their own unique solution, which is exactly what we have 
right now.
    So the intent is just like what we have done with the 
Humvees in terms of getting the chassis and getting a B kit, if 
you will, that we can hang onto that vehicle to make it an 
armored capability. We are going to do the same thing with our 
medium vehicles and also heavy fleet to identify how we can do 
the same thing.
    Mr. Davis of Kentucky. Do you see this type of technology--
I wouldn't call them add-ons correctly, but other parts of 
their deployment package? Would that be resident with the units 
or would that be kept at a logistical location and adapted 
based on contingencies?
    General Sorenson. I would say both. TRADOC is working to 
define what the future armor strategy ought to be, what that 
composition of armor capability ought to be. As we produce 
these kits, some of them will be in a warehouse, but in other 
cases as they deploy forward, a number of these kits will go 
forward, such that as they go from combat operations to 
sustainment operations, they can make that adjustment rather 
rapidly and not require a bunch of mechanics and welders and so 
forth to begin to put these kits on. In many cases, the basic 
maintenance capability can be put on immediately.
    Mr. Davis of Kentucky. I yield back the balance of my time, 
Mr. Chairman.
    The Chairman. Did the Ranking Member have a few comments?
    Mr. Skelton. I know the Chairman and other members of the 
committee heard me make reference to this before, but I--and I 
would like to address a question to General Mattis, if I may. 
It appears that the insurgency guerilla warfare was not 
anticipated or not anticipated fully. General, I am not a 
clairvoyant nor am I a graduate of any of the war colleges, but 
my studying of things military over the years as a member of 
this committee caused me in September of 2002 to send a letter 
to the President with copies to the Pentagon. I have reason to 
believe they were widely distributed. The letter which, of 
course, is before the war, which began in March of 2003, 
anticipated potential and extensive conflict against American 
forces and/or among the Iraqi ethnic and religious groups; in 
other words, the potential for insurgency.
    I did the same a few days before the invasion in March, 
2003. As a result of my first letter, Steven Hadley and Elliot 
Abrams came to my office to allay my concerns. Sadly, I was 
right. Now, if I can come up with a potential problem, why 
can't those of you who study and live the military anticipate 
this? I realize at that time you were just a two-star general 
and you may say, Congressman, it was above my pay grade. But 
you are the only one here to ask that question of. Why was it 
not anticipated that there would be an insurgency? And I am not 
talking about the type of insurgency, but just an insurgency. 
General.
    General Mattis. Congressman Skelton, it is not above my pay 
grade. It is a very valid question.
    Mr. Skelton. Not above the pay grade now, but as a two-
star, it may have been.
    General Mattis. That is what we are paid to do. Much of the 
professional PME, professional military education that we offer 
to our military leaders today is thanks, in no small part, to 
your sustained tenacious drive toward this sort of preparation 
of our leadership.
    I will tell you that General Hagee, when he was the 
commanding general of 1 MEF, I was flown out of Afghanistan, if 
I remember right, in March of 2002, back to 1 MEF as his 
deputy. And in April we went through a war game. He pulled out 
all of our best planners, earning the ire of some of our gray 
beards, and said the day we step across that border, we will be 
in phase four behind us, so start putting together the plan. I 
was not so brilliant. I went to him and said, can't we 
concentrate on winning the war first? He said no, this is 
important.
    They put together a plan that was so good that when I was 
sent down to command First Marine Division for the attack in 
Iraq, I took the plan with me. In November of that year, former 
Commander in Chief of Central Command was the guest of honor at 
the First Marine Division birthday ball--and this is November. 
We deployed, as you know, in January and February. And he said, 
``Young men,'' he said, ``you will destroy the enemy's army in 
six weeks or us old guys are going to disown you.'' but he 
said, ``Then the work begins.'' I had two generals and a former 
retired marine commander of Central Command who warned us that 
the hard work would start not when we were fighting the main 
force of the enemy.
    We had a plan, we executed the plan. I am speaking now as 
tactical commander, as a division commander. Perhaps it was not 
on the national level thoroughly thought through. Certainly 
with hindsight, we can see things. Perhaps because of the 
clarity of your views and the reading that you have done--I 
have seen your reading list, as you recall--you were able to 
identify it. We went five and a half months, Congressman 
Skelton, five and a half months after we pulled out of Tikrit 
and Baghdad in the southern area, and I didn't lose one sailor 
or marine. We lost about 55 or 60 wounded, some grievously 
wounded. And the insurgency was growing during this period.
    You know, sir, I can't give you a sufficient answer. I 
think if instead of 2005 it was 1805 in this room, we would not 
anticipate that in 10 years the British Navy would sail up the 
Chesapeake and they would burn this building. I think in 1905, 
we would not anticipate that in 12 years our Indian fighting 
armies spread across the western frontier and would be fighting 
with machine guns and barbed wire in the trenches in Europe.
    Sir, life is one darn thing after another. It is not a good 
answer for you. We anticipated a lot. We had a plan. We knew 
how to get the lights turned back on, get the water treatment 
plants working so there would be no cholera, to make common 
cause with the Iraqis. And in many, many places, it has worked. 
And when you look at an election in Iraq where a purple finger 
could have gotten your family destroyed, killed, and they had a 
voter turnout that rivaled what we had in some of our 
elections, I think we have accomplished a lot.
    And it is always easy in hindsight to see where perhaps we 
fell short, and I acknowledge and take responsibility for it. 
But we have done a lot of things right, sir and that was thanks 
to the PME in the anticipation and a lot of work that we have 
done to try and get it right. The victories we have had--and 
they have been significant--have not come by happenstance. And 
the challenges, yes, and the losses as heartbreaking as they 
are, well, it could have been a lot worse, sir.
    Mr. Skelton. General, I thank you.
    The Chairman. I thank the gentlemen.
    Gentlemen, thank you very much for your testimony, and we 
still have a panel to go. So this is a good marathon session, 
but I think it is worthwhile.
    You know, one thing that I think is--one realization I 
think most folks have from looking at the operation in the 
warfighting theaters, the asymmetric threats that have been 
carried out fairly effectively by an enemy that is adaptive 
have reflected, I think, to all of us that the Humvee is 
basically a big Jeep. It was a successor to the Jeep. It was 
never intended to be a tank or even an armored vehicle, and yet 
it has gone--we have used them in tactical situations. We have 
used them in combat situations. And we have loaded them up and 
tried to load them up with enough armor to the point where it 
is a little bit like the cartoon where you have the little boy 
that is ready to go out and play in the snow, and his mommy is 
asking why he is not moving, and he says, you have got so much 
stuff on me, you have bundled me up so much against the cold 
that I can't move.
    You can only do so much with a Humvee. Even if you have the 
beefed-up suspension and the increased engine power that we 
had--put into the 1114, you still have basically a big Jeep 
that has to carry a lot of steel. Since--although we are 
talking about the armor situation and force protection in 
theater, what do you think, General Catto? Where do you think 
we are going to be going with the next vehicle? Do you think 
the Humvee has, in light of this asymmetric warfare, seen its 
day and is going to be relegated to garrison-type situations? 
Do you think we need to go with another vehicle that has more 
suspension, more horses, more protection?
    General Catto. Mr. Chairman, I think we have got a lot of 
Humvees for the near term that we are going to use until we 
die. Your question really means are we going to develop a 
vehicle from the ground up for survivability that we can put 
armor packages on or off of, depending upon the requirement. 
And I think the answer is that is where we have to go. And it 
is going to be an issue of what is the mission you want and 
what do you want the vehicle to do and how do we build that? My 
opinion is we are going to have to start with a new class 
vehicle and build it from the tires up.
    The Chairman. General Sorenson, what do you think?
    General Sorenson. I think in some cases you are correct. In 
fact, right now we have been conducting, if you will, with 
industry partners, tactical rodeos, just like we did with the 
Stryker competition. We are doing a utility vehicle and a 
medium utility vehicle, and we are having industry show up and 
kind of give some ideas in terms of what we can do; as well as 
we are trying to leverage other lessons learned from this 
environment to figure out how we can plan for improvements in 
what the soldiers are requiring for utility vehicles and medium 
utility vehicles in the future.
    The Chairman. Well, gentlemen, thank you. And let me just 
leave you with this. We have a schedule to finish out the armor 
program. We want to look at this schedule with you and we would 
like you to take it back and take a look at it to see if there 
is any way we can accelerate the program, and let us know what 
the long poles and the tent are. And the committee will work 
with you to try to shorten those poles and try to compress the 
schedule.
    We are going to vote in a little bit on this bill, the big 
supplemental that will have--incidentally, along with the other 
things and the jammer funding that is in this and armor 
funding, we also have money to try to handle for the first time 
these mortar rounds coming into theater. And we have had some 
tests out at Yuma and El Paso that have proven fruitful. And we 
are going to be moving systems into theater fairly quickly and 
we would like to have your feedback on that, and I think we 
have got some candidate locations for those first couple of 
systems. But we do need to scrub with you this schedule and see 
if we can't compress it, accelerate it, and do whatever it 
takes to get the program finished.
    Thank you very much. We will move to our third panel. And 
General Mattis, you have the pleasure of being with us in your 
first panel for a long time, so stay where you are at. And you 
are going to be joined with Lieutenant Colonel Paul J. Kennedy 
United States Marine Corps, former battalion commander, 2nd 
Battalion, 4th Marine Regiment, First Marine Division, who is 
now with Headquarters Battalion, First Marine Division.
    General Mattis, if you want to lead in and introduce. And 
also, General Kelly, come up to the table. You are welcome, 
too.

STATEMENT OF LT. GEN. JAMES N. MATTIS, FORMER COMMANDER, FIRST 
   MARINE DIVISION, COMMANDING GENERAL, MARINE CORPS COMBAT 
             DEVELOPMENT COMMAND, U.S. MARINE CORPS

    General Mattis. Thank you Mr. Chairman, Lieutenant Paul 
Kennedy served as the lead First Marine Division planner for 
OIF 1. Going back into OIF 2, his name had come up on the 
command list and he took command of 2nd Battalion, 4th Marines. 
This battalion was given the task of holding Ramadi. Ramadi in 
Al-Anbar Province is the center of gravity. It is the 
administrative and legal center of Al-Anbar Province, which is 
the heart of the Sunni triangle and it was the critical key 
terrain that must be held. While Fallujah received a lot of 
attention, the place that we could not lose control of was this 
town.
    Colonel Kennedy served under an Army brigade commander who 
served under my command. In other words, we have a Marine 
division with an Army brigade, and inside the Army brigade was 
the 2nd Battalion, 4th Marines. And that is the command 
structure he operated under.
    I observed Colonel Kennedy on probably a daily basis in 
terms of his troops, because that is where my headquarters, was 
and I would depart every day through his lines. And I would go 
down and see him probably as often as I saw any other battalion 
commander, every week to ten days or so, maybe two weeks if I 
was caught elsewhere.
    Colonel Kennedy proved to be one of our more effective 
combat leaders in one of our toughest fights that the Marine 
Corps has fought since Vietnam. I think that is a sufficient 
introduction, Mr. Chairman.
    The Chairman. Thank you very much, General.
    Colonel, the floor is yours, sir.

    STATEMENT OF LT. COL. PAUL J. KENNEDY, FORMER BATTALION 
  COMMANDER, 2ND BATTALION, 4TH MARINE REGIMENT, FIRST MARINE 
 DIVISION, HEADQUARTERS BATTALION, FIRST MARINE DIVISION, U.S. 
                          MARINE CORPS

    Colonel Kennedy. Mr. Chairman, distinguished members of the 
committee----
    The Chairman. Have you got that mike on there? And bring in 
pretty close if you can.
    Colonel Kennedy. Yes, sir.
    Mr. Chairman, distinguished members of the committee, thank 
you for this opportunity to address the issues that surround 
the force protection of the marines and sailors of 2nd 
Battalion, 4th Marines.
    It is my distinct privilege to represent the nearly 1,100 
marines and sailors of 2-4 during these proceedings, for after 
only a short seven months home, they are forward-deployed as a 
force in readiness. For this opportunity I am exceptionally 
thankful.
    Over the course of seven months within the City of Ar 
Ramadi, Iraq, 2-4 battled a relentless and adaptive enemy for 
control of this provincial capital, the heart of the Sunni 
Triangle. During this period we bore witness to an ever-
increasing lethality of attacks that ranged from simple 
improvised explosive devices to suicide bombers to full-blown 
urban combat. This wrought a terrible price for our service. 
This is war, and we are committed to winning.
    In April, May, and July, we fought full-scale combat on the 
city streets of our assigned area, accounted for nearly 1,000 
enemy dead combatants, while maintaining control over the 
population of 450,000 Iraqi citizens. This success did not come 
cheaply. In the almost daily fight that defined our lives, 34 
young men gave their lives with the several times that number 
wounded.
    In spite of the sacrifice, their spirit readied them for 
each successive challenge, eager to deny the enemy the chance 
of victory. They stood ready to defend the lives of the 
innocent, but, most importantly, they stood ready to defend the 
lives of their fellow countrymen, and in this they exceeded all 
expectations.
    In response to Representative Weldon's earlier questions, I 
am also the officer responsible for writing the fitness report 
concerning Captain Royer. I would tell you that Kelly Royer is 
a good and decent man and initially a strong combat leader. In 
over 90 days of intense combat, my confidence in his ability to 
lead eroded to the point of necessitating his relief. This was 
my decision and my decision alone. And, sir, I will tell you 
that it was not an easy one to take.
    The relief was not based upon any complaints that he had 
forwarded or suggestion of falling out of disfavor. It was 
strictly a matter of leadership shortfalls brought about by 
long-term exposure to combat. I have spoken to the captain in 
recent months in his current and demanding assignment as the 
operations officer for Headquarters Battalion of the 1st Marine 
Division.
    Sir, beyond these comments and out of respect for Captain 
Royer's personal reputation and that of his family, I would 
await a closed hearing to further discuss this particular 
matter.
    I thank the Members of Congress for their support in 
providing my marines the best equipment possible to continue 
this war on terrorism, and I am grateful for your inquiry as to 
the welfare and well-being of the Magnificent Bastards of 2-4. 
At this time I would be happy to answer your questions.
    The Chairman. Colonel Kennedy, thank you for your very 
succinct statement, and, in light of your leadership position 
as the commanding officer of the battalion, that we should give 
a lot of credibility to what you have just said.
    You know, one thing in reading the story about E Company, 
one thing that it refers to is the--to a lack of equipment, to 
a delay in armoring. And that is a thread that is woven 
throughout this story, along with the aspect of Captain Royer.
    And there has been--it appeared to me, and I think this has 
probably been the case throughout the history of this country, 
that there is always a disconnect between those of us who are 
the shopkeepers back in the States, or in the system, whether 
it is wearing the uniform or the congressional system or in the 
civil service or in industry, that supplies your equipment and 
the warfighter who needs it.
    And, in fact, I can remember when we were with you, General 
Mattis, I was there with Congressman Calvert and Congressman 
Reyes last time, and I asked you what you needed, and you said, 
I would like to get scopes for my guys and for all the marines, 
ACOGs. That makes sense because even though it is a little 
magnification, it gives them added capability, and they are 
all--marines are good shots above all, and that leverages that 
capability.
    And I came back and I met with the head of SOCOM, and I 
called him up and I said, do you have any ACOGs? And he said, I 
have a hundred that I can ship tomorrow. And he had a guy in 
there at 7 a.m. in the morning in my office, and he rolled out 
a blanket--I don't know how he got through security--and he had 
every device known to man that Special Operations had. And he 
said, I could send a hundred overnight.
    I saw the e-mails after we sent those coming from the 
marines about the old Congressmen getting involved in the 
acquisition system, and all we were doing was sending you what 
you asked for, right? No strings attached. So my point is that 
it appears to me that there is, and always has been, and 
probably always will be to some degree, a disconnect between 
the guys that need stuff, the guys in the battlefield, and the 
system that supplies that stuff. And what we are trying to do 
is shorten up that connection and make that connection one that 
is more responsive.
    So, Colonel Kennedy, if you look at the statements that are 
in this, have you read this article that is the subject of a 
lot of Members' understanding of the situation?
    Colonel Kennedy. Yes, sir, I have.
    The Chairman. Okay. You have read where they talk about 
having unarmored Humvees and Humvees that were partly armored 
and some that were there that appeared to be almost totally 
soft. But as I recall when you folks went in, one pledge that 
the Marines gave me when you came over, left out of Kuwait, was 
that all the Humvees coming in--this is when you came back to 
Fallujah--came into Fallujah--that everything that was going to 
be in operations would have some kind of armor on it, either 
steel doors, or that plus something else; so maybe not 1114s 
and maybe not kitted, but would have some level of armor.
    But from your estimation, your personal estimation, was 
there more that could have been done in terms of moving armor 
to the guys who were doing the fighting, which was largely this 
company and your battalion in particular?
    Colonel Kennedy. Sir, there was a progression of armor 
protection that started when we got to Kuwait. We had 
originally embarked about 80 Humvees from Camp Pendleton, none 
of which were armored per se. Before we departed in the two-
week bloc of preparation, before we departed, 75 percent of the 
vehicles that went forward--I gained some vehicles in that 
process--75 percent of those vehicles were armored to some 
Level three protection.
    None of the troops' carrier Humvees that went forward had 
anything less than the armored doors, and if they did not have 
armor in the back in the actual troop compartments, they went 
empty. Echo Company did not make that transit. They flew into 
Al Assad and met with us in Ramadi. Every vehicle that went 
forward either had the LOGCOM-provided Level three armor or 
armor that we procured in Camp Victory from Army units that 
were departing the theater.
    The Chairman. So you had--the stuff that you brought in 
from Kuwait typically would have the two--have the doors 
armored, have steel doors?
    Colonel Kennedy. Yes, sir. The original doors, I believe, 
were called the Simula doors. They were half doors. We had not 
seen the L-shaped armor at that point. We received a number of 
side armor panels from the division logistics system and from 
the Army units that were depositing that same armor that they 
had locally fabricated in Kuwait.
    The Chairman. Okay. The marines that were killed in that 
firefight, which I think you had one Humvee that took heavy 
fire, the one that is referred to in the article? I think you 
had, what, seven or eight marines killed in that particular 
vehicle? What did that have on it?
    Colonel Kennedy. Sir, I cannot attest 100 percent. As we--
any armor that would have been on that vehicle was totally 
destroyed was pulled off soon thereafter. During that period on 
the 6th of April when it was ambushed, that fight continued for 
three days, and there was a varying state of breakage of the 
equipment.
    I have pictures from--taken right after those marines were 
pulled from those vehicles. They were shot through the 
windshield by a 12.7-millimeter heavy machine gun. Armor really 
was not an issue in protecting or failing to protect those 
marines. Even if they had had the 4-inch-thick ballistic glass, 
from the 100 meters away, a heavier machine gun is going to 
defeat any armor.
    Six marines died right out. One was manning his machine 
gun, so he was standing above the armor that would have 
afforded him any protection. And the last marine to have been 
killed in that ambush, in fact it was a sailor, a corpsman that 
was treating the marine on the ground. So he was outside of the 
vehicle. I do not believe that armor in that case would have 
made a difference, sir.
    The Chairman. That machine gun is approximately what 
caliber? Is that the equivalent of a .50?
    Colonel Kennedy. It is exactly a .50-caliber.
    The Chairman. .50 cal is going to tear up a Humvee fairly 
quickly.
    What about the second vehicle that they speak about in the 
article that was following that particular Humvee? I think it 
states that it had armor. What degree of armor did that have, 
if you can recall?
    Colonel Kennedy. Yes, sir. On the 29th of May, Echo Company 
was tasked with investigating a parked station wagon that was 
on the side of the road. We had not seen vehicle-borne IEDs at 
that stage in our time in Iraq, but it seemed suspicious 
because the Iraqis do not just leave a vehicle unattended. It 
would be quickly stripped.
    A convoy of four vehicles was passing that station wagon, 
passed within six feet of the vehicle, when it detonated on the 
last Humvee. That Humvee was transporting not only the Marines 
that were assigned to the Quick Reaction Force, but it was, in 
fact, carrying additional marines that had been picked up along 
the road that had been conducting a patrol. So it was a fairly 
full vehicle.
    The armor had again, sir, LOGCOM-provided flank protection. 
It had the Foster Miller panels on the backside, and it had L-
shaped doors and the ballistic glass for the windshield.
    I was the on scene of that explosion within about five to 
ten minutes. We surveyed the entire vehicle. There were no 
perforations or failures of the armor systems themselves. It 
was where marines were exposed above the protection of the 
armor or through the void where the L-shaped door is that they 
were killed by the overpressure.
    Ultimately, sir, it appeared to have been four to five 
.155-millimeter artillery projectiles, plastic explosives and 
ball bearings that killed those marines.
    The Chairman. So in that incident, a fully up-armored 1114, 
with all of the--with the full suit of armor would not have 
prevented the deaths? Is that basically your opinion?
    Colonel Kennedy. Sir, we experienced just over 200 IEDs 
over the course of the time we were there. Sir, there were 
times where I had no rational explanation for why marines 
survived detonation of an IED right at their feet. Other times 
they were as much as 50 meters away and were injured 
grievously. I do not know if an up-armored Humvee would have or 
would not have survived that level of explosion. It was a big 
bomb, sir. The station wagon itself was completely 
disintegrated. There was a small portion of the engine block 
left.
    The Chairman. Okay. And the first incident you described, 
the ambush where you had heavy machine gun fire coming through 
the front of the vehicle, that, in your opinion--is there any 
type of armor suit that we make for the Humvee today that would 
have survived that or would have prevented that or repelled 
that attack?
    Colonel Kennedy. I don't believe so, sir. I know that a 
.50-caliber machine gun at that range striking any armor, it is 
going to penetrate anything short of a Bradley fighting vehicle 
or a tank. It is going to kill it.
    The Chairman. I don't think the ballistic glass, any of the 
species of the ballistic glass that we make is heavy duty 
enough to take a hit, much less multiple hits with a .50.
    Mr. Skelton.
    Mr. Skelton. Colonel, thank you for your testimony. 
Regarding the marine in question of which you spoke, did you 
write the earlier OER on him?
    Colonel Kennedy. Yes, sir, I did.
    Mr. Skelton. And the subsequent comments that Congressman 
Weldon read, did you write those as well?
    Colonel Kennedy. Sir, actually those were--those were 
comments provided for this report. There was comments provided 
up the chain of command. There are procedures to safeguard that 
officer's career, reputation, checks and balances. So I believe 
that is where those comments were taken from, sir.
    Mr. Skelton. Thank you.
    The Chairman. General Mattis, let me ask you while we have 
got you here--we are going to have a vote very quickly on this 
supplemental--what is your take on the western AOR right now, 
the Fallujah to Syria border? And in particular, if you look at 
the standup of the Iraqi forces and the mentoring that we are 
undertaking now, the embedding of American advisers, if you 
will, the ongoing training, we have got a lot of Iraqi forces 
being stood up for almost every AOR except that AOR. They are a 
very small, dedicated Iraqi group. The implication is that is 
pretty heavy lifting.
    I would like to have your personal opinion as to whether 
you think that the Iraqis are going to be able to hold that 
tough piece of territory and manage it not to an extremely high 
level, but to a basic level of stability?
    General Mattis. Sir, Mr. Chairman, I would like to caveat 
what I say, that I have been out of there for a while. With 
Fallujah no longer providing a sanctuary due to the victory 
that we had in November, last November, the border is, as you 
know, almost impossible to fully control. We have our own 
challenges on our own southwest border. This is a very remote 
and long border, and there is always going to be some people 
coming across which impacts on the security situation there.
    The election, however, has changed this dynamic. I think it 
is why the enemy is trying to kill so many Iraqis now.
    The Iraqi security forces that were out there were 
penetrated by the enemy, heavily penetrated by the enemy. Plus 
they had intense tribal loyalties. And the current situation 
that the leadership, Iraqi and American, has taken charge of 
shows they have got to bring in nationally recruited Iraqi 
security forces. Young guys from the hometown walking down the 
street in uniform are too vulnerable. They know where their 
families are. They have tribal loyalties. Troops that are a 
nationally recruited force living in barracks, operating more 
on military or paramilitary lines will give us a better 
opportunity to allow them to, with American support, American 
stiffening, American training, American reaction forces for 
quite some time yet--will permit them to do what perhaps the 
disappointing performance of the previous force could not 
provide.
    The Chairman. But do you think they are going to be able to 
do it? And I agree with you totally that this is going to have 
to be a national force. Do you think they are going to be tough 
enough or the Iraq situation may evolve to where we can move 
out of some of the more lightly traveled areas and some of the 
less difficult areas in Iraq? But I can see in my mind's eye a 
continuing call from the Iraq Government for American forces to 
stabilize that western AOR, that piece of the triangle.
    General Mattis. Sir, since I am no longer over there, I 
always look a little askance at Washington, D.C., generals 
talking authoritatively about things a long ways away, or New 
York reporters writing about Ramadi when they have never been 
there. But it is trending in that way, sir.
    The Chairman. I would be interested in your take on that. 
And thank you for your service. You have a great reputation as 
a warfighter, and you did a great job handling our people. And, 
Colonel, thank you for your description of this tough area, 
this difficult area. You know, it is--the Marines have a very 
disciplined process, which is quite a personal process. And I 
know when my son was going through TBS, I remember him, he was 
writing his reports one day, because they get all the young--
all the new officers end up--are placed in leadership 
positions, and they have to rate sometimes their best friend; 
right? The rest of their peers. And their peers in turn rate 
them, and that means you have to sit down, look somebody in the 
eye, and tell them that they failed. And that is a difficult 
thing, but it is one that is necessary for the development of 
marines. And I don't think there is any substitute.
    And so I think the committee has got to take your statement 
as one that is--one that is made with honor, with insight and 
obviously an understanding of the situation that we do not 
have.
    So you certainly--I think you have served the committee 
well in giving us your take, straightforward, on this 
situation. And beyond that, I think it has been good, General 
Mattis, to have you here with us also listening to the armor 
discussion, because you are a consumer. And we are going to 
have to change this system. We are going to have to get a 
system developed. We are going to have to develop more 
response. This system is largely a product of Washington, D.C., 
to some degree, a product of Congress. It is a product of $600 
hammers that nobody ever wanted to see again.
    So we have a system that can say no 35 times before it says 
yes to anything. Even the new Jammer, this license that the 
Secretary signed out to use, a license we have given them to 
buy equipment for the combat theater, waiving all laws, there 
was enormous resistance, I can tell you, to utilizing that for 
something as basic as a Jammer. So hopefully we have trotted 
this one out, and we will use that as a model to follow.
    So let's work together and try to get this--try to work out 
this disconnect that has always existed to some degree between 
the field and the suppliers and serve our people well. So 
thanks a lot to your endurance, all parties involved. And thank 
you, General Kelly, for your helping to escort this august 
body, and thanks for your service to the country as well.
    This hearing is concluded. Let's get back together in three 
or four weeks, and let's sit down and see where we are.
    [Whereupon, at 1:34 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 5, 2005

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 5, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 32996.001
    
    [GRAPHIC] [TIFF OMITTED] 32996.002
    
    [GRAPHIC] [TIFF OMITTED] 32996.003
    
    [GRAPHIC] [TIFF OMITTED] 32996.004
    
    [GRAPHIC] [TIFF OMITTED] 32996.005
    
    [GRAPHIC] [TIFF OMITTED] 32996.006
    
    [GRAPHIC] [TIFF OMITTED] 32996.007
    
    [GRAPHIC] [TIFF OMITTED] 32996.008
    
    [GRAPHIC] [TIFF OMITTED] 32996.009
    
    [GRAPHIC] [TIFF OMITTED] 32996.010
    
    [GRAPHIC] [TIFF OMITTED] 32996.011
    
    [GRAPHIC] [TIFF OMITTED] 32996.012
    
    [GRAPHIC] [TIFF OMITTED] 32996.013
    
    [GRAPHIC] [TIFF OMITTED] 32996.014
    
    [GRAPHIC] [TIFF OMITTED] 32996.015
    
    [GRAPHIC] [TIFF OMITTED] 32996.016
    
    [GRAPHIC] [TIFF OMITTED] 32996.017
    
    [GRAPHIC] [TIFF OMITTED] 32996.018
    
    [GRAPHIC] [TIFF OMITTED] 32996.019
    
    [GRAPHIC] [TIFF OMITTED] 32996.020
    
    [GRAPHIC] [TIFF OMITTED] 32996.021
    
    [GRAPHIC] [TIFF OMITTED] 32996.022
    
    [GRAPHIC] [TIFF OMITTED] 32996.023
    
    [GRAPHIC] [TIFF OMITTED] 32996.024
    
    [GRAPHIC] [TIFF OMITTED] 32996.025
    
    [GRAPHIC] [TIFF OMITTED] 32996.026
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 5, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 32996.027
    
    [GRAPHIC] [TIFF OMITTED] 32996.028
    
    [GRAPHIC] [TIFF OMITTED] 32996.029
    
    [GRAPHIC] [TIFF OMITTED] 32996.030
    
    [GRAPHIC] [TIFF OMITTED] 32996.031
    
    [GRAPHIC] [TIFF OMITTED] 32996.032
    
    [GRAPHIC] [TIFF OMITTED] 32996.033
    
    [GRAPHIC] [TIFF OMITTED] 32996.034
    
    [GRAPHIC] [TIFF OMITTED] 32996.035
    
    [GRAPHIC] [TIFF OMITTED] 32996.036
    
    [GRAPHIC] [TIFF OMITTED] 32996.037
    
    [GRAPHIC] [TIFF OMITTED] 32996.038
    
    [GRAPHIC] [TIFF OMITTED] 32996.039
    
    [GRAPHIC] [TIFF OMITTED] 32996.040
    
    [GRAPHIC] [TIFF OMITTED] 32996.041
    
    [GRAPHIC] [TIFF OMITTED] 32996.042
    
    [GRAPHIC] [TIFF OMITTED] 32996.043
    
    [GRAPHIC] [TIFF OMITTED] 32996.044
    
    [GRAPHIC] [TIFF OMITTED] 32996.045
    
    [GRAPHIC] [TIFF OMITTED] 32996.046
    
    [GRAPHIC] [TIFF OMITTED] 32996.047
    
    [GRAPHIC] [TIFF OMITTED] 32996.048
    
    [GRAPHIC] [TIFF OMITTED] 32996.049
    
    [GRAPHIC] [TIFF OMITTED] 32996.050
    
    [GRAPHIC] [TIFF OMITTED] 32996.051
    
    [GRAPHIC] [TIFF OMITTED] 32996.052
    
    [GRAPHIC] [TIFF OMITTED] 32996.053
    
    [GRAPHIC] [TIFF OMITTED] 32996.054
    
    [GRAPHIC] [TIFF OMITTED] 32996.055
    
    [GRAPHIC] [TIFF OMITTED] 32996.056
    
    [GRAPHIC] [TIFF OMITTED] 32996.057
    
    [GRAPHIC] [TIFF OMITTED] 32996.058
    
    [GRAPHIC] [TIFF OMITTED] 32996.059
    
    [GRAPHIC] [TIFF OMITTED] 32996.060
    
    [GRAPHIC] [TIFF OMITTED] 32996.061
    
    [GRAPHIC] [TIFF OMITTED] 32996.062
    
    [GRAPHIC] [TIFF OMITTED] 32996.063
    
    [GRAPHIC] [TIFF OMITTED] 32996.064
    
    [GRAPHIC] [TIFF OMITTED] 32996.065
    
    [GRAPHIC] [TIFF OMITTED] 32996.066
    
    [GRAPHIC] [TIFF OMITTED] 32996.067
    
    [GRAPHIC] [TIFF OMITTED] 32996.068
    
    [GRAPHIC] [TIFF OMITTED] 32996.069
    
    [GRAPHIC] [TIFF OMITTED] 32996.070
    
    [GRAPHIC] [TIFF OMITTED] 32996.071
    
    [GRAPHIC] [TIFF OMITTED] 32996.072
    
    [GRAPHIC] [TIFF OMITTED] 32996.073
    
    [GRAPHIC] [TIFF OMITTED] 32996.074
    
    [GRAPHIC] [TIFF OMITTED] 32996.075
    
    [GRAPHIC] [TIFF OMITTED] 32996.076
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                              May 5, 2005

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. REYES

    Mr. Reyes. What is the percentage that you think is armored? Is 
that in the ball park that we have 60, 70 percent of the vehicles not 
armored in Afghanistan right now?
    General Sorenson. [The information referred to can be found in the 
Appendix on page 153.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. I would like an update, first of all, on how our 
equipment is doing. And then, as a follow-up to that, I have been 
concerned about more rapidly developing composite material.
    What effect the add-on armor, either a Level two or Level three, is 
having on the service life of the vehicles? And can you expand upon the 
efforts that you are taking to decrease the weight of the armor, or the 
vehicles, to ensure sufficient protection without further degradation.
    If you can expand on those, I know the committee would consider it 
helpful.

    General Sorenson.

PURPOSE: To provide Congress with an update of the HMMWV 
Recapitalization Program.
FACTS:

    a. Recapitalization is an important on-going element of the TWV 
strategy that has proven effective. It is adding new capabilities such 
as engines, chassis, and transmissions, which enhances a program where 
existing equipment is aging.
    b. The Light Tactical Vehicle Fleet (HMMWVs) represents 50% of the 
total tactical truck fleet, approximately 115,000 systems. The major 
portion approximately 86,000 vehicles are AO models. The fleet average 
age is 13.9 years against a EUL of 15-years. The HMMWV program is a 
Tri-service program, supporting Army, Marine Corps and Air Force 
requirements. Approximately 12,600 HMMWVs (12% of Fleet) are supporting 
OIF and are experiencing a 6:1 OPTEMPO [putting 6,000 miles in a war 
time one year period vs. 1,000 miles under a normal peace time 
OPTEMPO]. The M998 HMMWV variants are unable to accept add-on armor to 
achieve a 360-degree protection. These operational gaps necessitated 
the procurement of additional Up-Armored HMMWVs (UAHs) and 13,000 Add-
on Armor kits to provide force protection for soldiers. Production 
lines have now been changed and we are currently producing only M1114's 
(UAHs), M1151 and M1152 platforms to accommodate the force protection 
requirements.
    c. The VCSA approved and revised the HMMWV Recapitalization 
Program, which is essential to the aging fleet. A selected number of 
the M998A0 vehicles from the HMMWV fleet will be modified to meet the 
M1097R1 vehicle standard. The M1097R1 vehicle is more capable, 
reliable, and maintainable and can accept Add-on Armor for force 
protection. The result of this Recapitalization effort is a vehicle 
with an extended service life that is ``like new'' in appearance, 
1900lbs increase payload, improved suspension components, increased 
electrical capacity, and is force protection compliant.
    d. To meet Army demands, a third Recap production source, Maine 
Military Authority, has been added to the program to augment Red River 
Army Depot (RRAD) and Letterkenny Army Depot (LEAD) production 
capacity. The Army budget currently has programmed 697 vehicles in FY06 
and 800 vehicles in FY07. However, the TWV Strategy and OSD Stress 
Study support quantities of 4000 in each of the program years. Funding 
strategy is to fund through supplementals. Additionally, a Re-power 
Program is underway to increase the horsepower and introduce an EPA 
compliant power train for both the HMMWV Recap and new production 
lines.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ANDREWS
    Mr. Andrews. At some point there is a sea change. We go from having 
200 and some of these armored vehicles to rushing to get ourselves over 
10,000. Frankly, the track record in the months at the end of calendar 
2003 is not bad. You have ramped up 8,000-and-something right now. But 
I am less interested in the industrial production than I am the 
paradigm shift in people's thinking. Who was it that came to you and 
said, you know, we need a lot more of these things in a hurry; and when 
did that happen?

    General Sorenson.

THE ARMY POSITION:

    <bullet>  The Army is meeting the CENTCOM Combatant Commander's 
increased requirements for Up-Armored HMMWVs with increased production, 
diverting current production, and redirecting assets in support of 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF).
    <bullet> The current requirement for Up-Armored HMMWVs is 10,079.
    <bullet>  There are approximately 7,991 Up-Armored vehicles 
currently available to, or directed to, the theater Area of 
Responsibility (AOR). This number includes approximately 2,725 Up-
Armored vehicles obtained from units deployed and those diverted from 
production or redistributed from other units not currently identified 
for deployment.
    <bullet>  All Up-Armored HMMWVs deployed to theater will remain in 
theater, whether organic to units or in fulfillment to CENTCOM 
requirement to protect Soldiers' lives and to ensure we have enough 
armored vehicles required to perform the military mission.

TALKING POINTS

    <bullet>  The initial theater request for Up-Armored vehicle 
requirement was received in May 2003 for 235 vehicles. This requirement 
was fulfilled with vehicles coming directly from the production line 
(originally scheduled for other units) and a redistribution of vehicles 
assigned to Forces Command and U.S. Army Europe.
    <bullet>  In Aug. 2003, CFLCC requested an increase in Up-Armored 
vehicles from 235 to 1,233.
    <bullet>  By Aug. 2003, CFLCC further refined the requirement to 
1,407 vehicles.
    <bullet>  On 3 Oct. 2003, the request increased to 2,957 to include 
Military Police requirements for OIF.
    <bullet>  Additional requirements for OEF were approved in Oct. 
2003, bringing the total to 3,142.
    <bullet>  From Dec. 2003 to Jan. 2004 Up-Armored vehicle 
requirements increased by more than 1,000 vehicles bringing the total 
to 4,149.
    <bullet>  On 15 Mar. 2004, the Vice Chief of Staff, Army, approved 
additional increases bringing the requirement to 4,388.
    <bullet>  By Apr. 2004 additional Up-Armored vehicle requirements 
for OIF/OEF were approved by the VCSA increasing the requirement to 
4,454.
    <bullet>  On 29 June 2004, the VCSA approved further requirements, 
bringing the total requirement to 6,223.
    <bullet>  On 14 Aug. 2004, the VCSA approved additional 
requirements to bring the total required to 8,105.
    <bullet>  On 23 Dec. 04, the VCSA approved additional Up-Armored 
vehicles requirement for OEF increasing the requirement to 8,275.
    <bullet>  On 11 Mar. 05, the VCSA approved additional Up-Armored 
vehicles requirement for OEF increasing the requirement to 10,079.
    [A chart of the UAH Requirements can be found in the Appendix on 
page 154.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. If you could give me some kind of report on what you 
are doing, because as I said, what I understand is that it is--the 
money is not being spent to go after the composites, and they have a 
great benefit to us.

    General Sorenson.

PURPOSE: To provide information on S&T efforts for composite armor
FACTS:

    a. The Army's S&T program continues to focus on developing lighter 
weight, improved protective armor technology for both vehicles and 
personnel to include advanced composite concepts/designs, active 
protection systems, and enhanced predictive models.
    b. U.S. Army Research and Development and Engineering Command 
(RDECOM) has developed key advances in fibers and materials that have 
contributed to the success of the Interceptor Body Armor. Additional 
efforts have focused on systems for increased extremity protection, 
such as the Deltoid Axillary Protection system.
    c. RDECOM is researching high-strength fibers such as M5 and Zylon, 
along with post-processing treatments, which could improve the 
fragmentation protection of soft armor systems. In addition, new 
methods of production and innovative architectures for protective 
materials (e.g., non-woven, unidirectional layers; backing materials; 
flexible resin impregnated fabrics) are being assessed.
    d. RDECOM has been working toward lighter and more affordable 
solutions for the entire spectrum of Army vehicles. Combat System and 
Tactical Wheeled Vehicle armors have had considerable success in using 
ballistic-grade composites such as the family of Kevlar and ``S2-
glass'' composite materials. The fiber reinforced composite materials 
are often combined with various metals or ceramics to form ``hybrid'' 
composite armors.
    e. Hybrid armors come in three basic variants.
       a. Metal-composite designs are approximately 30% lighter than 
monolithic steel. In general, the purpose of composites in these 
various hybrid constructions is to provide backing stiffness to the 
structure that is critical to the function of the armor design.
          i. Metal-Composite armor: Used in the Low Signature Armor 
Cab, the M1114, and other vehicles in development
       b. Hybrid ceramic-composite laminate designs are approximately 
66% lighter than monolithic steel. In these designs the composite 
materials support the ceramic tiles and catch residual projectile 
debris resulting from an impact. These designs have a higher cost and 
maintenance burden, but they are significantly lighter than metal-
composite armor systems.
          i. Ceramic-Composite Monocoque armor: Demonstrated in a 
mobile platform, the Composite Armored Vehicle technology 
demonstration, including maintenance and repair technologies.
          ii. Advanced Ceramic-Composite Structural armor: Higher 
efficiency armor technologies evolved for the Future Combat Systems 
Program.
       c. Composite hybrid armor panels can be constructed from a 
variety of composite materials and metals. The relationship governing 
the performance of composite hybrid armors is governed by interactions 
between the layers of material used. As there are multiple layers of 
materials, changing constituent materials will affect total system 
performance. Numerical models have been coupled to ballistic 
experiments to provide an assessment process and a limited predictive 
capability to understand the influence of armor recipe changes.
          i. Ceramic-Metal-Composite applique armors: Used in the M1117 
Armored Security Vehicle, the STRYKER, and can be applied to the fleet 
of tactical wheeled vehicles.


------------------------------------------------------------------------
                                     FY05  FY06  FY07  FY08  FY09  Total
------------------------------------------------------------------------
Soldier Ballistic Protection          3.0   2.5   1.5   2.6   2.7   12.3
Adv Lighteweight Armor for Vehicles   4.5  10.3  10.9  13.5  13.9   53.1
------------------------------------------------------------------------

                                  <all>

</pre></body></html>
